<html>
<title> - IDENTITY THEFT: HOW TO PROTECT AND RESTORE YOUR GOOD NAME</title>
<body><pre>[Senate Hearing 106-902]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-902

       IDENTITY THEFT: HOW TO PROTECT AND RESTORE YOUR GOOD NAME

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON TECHNOLOGY, TERRORISM,
                       AND GOVERNMENT INFORMATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                                   on

   PREVENTING CRIMINALS FROM USING TECHNOLOGY TO PREY UPON SOCIETY, 
 FOCUSING ON IDENTITY THEFT PREVENTION MEASURES AND THE IMPLEMENTATION 
 OF THE IDENTITY THEFT AND ASSUMPTION DETERRENCE ACT (PUB. LAW 105-318)

                               __________

                             JULY 12, 2000

                               __________

                          Serial No. J-106-97

                               __________

         Printed for the use of the Committee on the Judiciary



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
69-466                     WASHINGTON : 2001


                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                 Bruce A. Cohen, Minority Chief Counsel

                                 ______

   Subcommittee on Technology, Terrorism, and Government Information

                       JON KYL, Arizona, Chairman

ORRIN G. HATCH, Utah                 DIANNE FEINSTEIN, California
CHARLES E. GRASSLEY, Iowa            JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin

           Stephen Higgins, Chief Counsel and Staff Director

        Neil Quinter, Minority Chief Counsel and Staff Director

                                  (ii)
                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Kyl, Hon. Jon, U.S. Senator from the State of Arizona............     1
Feinstein, Hon. Dianne, U.S. Senator from the State of California     3

                    CHRONOLOGICAL LIST OF WITNESSES

Panel consisting of Jodie Bernstein, Director, Bureau of Consumer 
  Protection, Federal Trade Commission, Washington, DC; and James 
  G. Huse, Jr., Inspector General, Social Security 
  Administration, Baltimore, MD..................................     6
Panel consisting of Michelle Brown, identity theft victim, Los 
  Angeles, CA; Beth Givens, director, Privacy Rights 
  Clearinghouse, San Diego, CA; Steven M. Emmert, director, 
  Government and Industry Affairs, Reed Elseveir, Inc., and 
  Lexis-Nexis, and president, Individual Reference Service Group, 
  Washington, DC; and Stuart K. Pratt, vice president, Government 
  Relations, Associated Credit Bureaus, Inc., Washington, DC.....    23

                ALPHABETICAL LIST AND MATERIAL SUBMITTED

Bernstein, Jodie:
    Testimony....................................................     6
    Prepared statement...........................................     9
Brown Michelle:
    Testimony....................................................    23
    Prepared statement...........................................    25
        Attachment 1.............................................    28
Emmert, Steven M.:
    Testimony....................................................    61
    Prepared statement...........................................    63
Feinstein, Hon. Dianne: List of Internet Websites Where Personal 
  Information Can Be Purchased...................................     4
Givens, Beth:
    Testimony....................................................    30
    Prepared statement...........................................    31
        A Survey of Identity Theft Victims and Recommendations 
          for Reform.............................................    38
Huse, James E., Jr.:
    Testimony....................................................    13
    Prepared statement...........................................    15
Pratt, Stuart K.:
    Testimony....................................................    69
    Prepared statement...........................................    72
        News Release: Contact Norm Magnuson, dated March 14, 2000    74

 
       IDENTITY THEFT: HOW TO PROTECT AND RESTORE YOUR GOOD NAME

                              ----------                              


                        WEDNESDAY, JULY 12, 2000

                           U.S. Senate,    
         Subcommittee on Technology, Terrorism,    
                        and Government Information,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Jon Kyl 
(chairman of the subcommittee) presiding.
    Also present: Senator Feinstein.

  OPENING STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE 
                        STATE OF ARIZONA

    Senator Kyl. Good morning. This hearing of the Senate 
Judiciary Subcommittee on Technology, Terrorism, and Government 
Information will come to order. The subject of our hearing this 
morning is ``Identity Theft: How to Protect and Restore Your 
Good Name.''
    As chairman of this subcommittee, it has been my goal to 
prevent criminals from using technology to prey on society. 
There are few clearer violations of personal privacy than 
having your identity stolen and used to commit a crime. 
Criminals often use Social Security numbers and other personal 
information to assume the identity of law-abiding citizens and 
take their money. It is high-tech theft.
    To combat this, I sponsored the Identity Theft and 
Assumption Deterrence Act, which prohibits the stealing of a 
person's identity. The aim of the Act, which is now law, is to 
protect consumers and safeguard people's privacy. Almost 2 
years after passage of the Act, identity theft unfortunately 
continues to grow, particularly as the Internet grows in 
popularity.
    Teachers, housewives, doctors and, yes, even U.S. Senators 
have been recent victims of identity theft. It can happen to 
anyone.
    Well, how does it happen? Technology enables new, 
sophisticated means of identity theft. Using a variety of 
methods, criminals steal Social Security numbers, credit card 
numbers, drivers' license numbers, ATM cards, telephone calling 
cards, and other key pieces of a citizen's identity. Victims 
are often left with a bad credit report and must spend months 
and even years regaining their financial wholeness.
    In the meantime, they have difficulty writing checks, 
obtaining loans, renting apartments, getting their children 
financial aid for college, even getting hired. Victims of 
identity theft need help as they attempt to untangle the web of 
deception that has allowed another individual person to 
impersonate them.
    The key to prevention is businesses establishing 
responsible information handling practices and for the credit 
industry to adopt stricter application verification procedures 
and to put limits on data disclosure. One provision in a bill 
that Senator Feinstein and I have proposed would require a 
credit card issuer to confirm any change of address with the 
cardholder within 10 days. This could prevent the common method 
of identity fraud where a criminal steals an individual's 
credit card number and then obtains a duplicate card by 
informing the credit issuer of a change of address. Credit 
bureaus would be required to disclose to credit issuers that an 
address on the application does not match the address on the 
credit report.
    Another provision of this legislation would ensure that 
conspicuous fraud alerts would appear on credit reports, and 
also it would impose penalties for non-compliance by credit 
issuers and credit bureaus. Another provision would require the 
credit issuers and credit bureaus to develop a universally 
recognized form for reporting identity fraud. Victims could 
then fill out one form and one affidavit to supply to the 
numerous companies and entities involved in reporting an 
identity theft.
    These legislative changes, and the willingness of many here 
to adapt to best business practices, will help victims to 
detect errors on their credit history, report the errors 
efficiently, and to act quickly to recover their good name.
    Now, just a couple of statistics before we begin. I think 
it is interesting that in fiscal year 1999, the Social Security 
Administration's Office of Inspector General hotline for fraud 
and abuse reported more than 62,000 instances of misuse of 
Social Security numbers, something that Senator Feinstein has 
been working on. Since November 1999, the FTC hotline and 
website have logged more than 20,000 calls and 1,500 e-mail 
complaints regarding identity theft. So this is an ongoing, 
serious, significant problem.
    Today, our subcommittee will hear from six witnesses about 
the effect of identity theft and the help that victims of 
identity theft can expect. On the first panel, we are glad to 
welcome back Jodie Bernstein, who is the current Director of 
the Bureau of Consumer Protection of the Federal Trade 
Commission. She will discuss how the FTC has responded to 
identity theft in carrying out its duties under the 1998 law. 
She will also discuss what legislative and non-legislative 
measures have been taken and what could reduce criminals' 
access to sensitive data.
    James G. Huse, the current Inspector General of the Social 
Security Administration, is our next witness. He will discuss 
how Social Security numbers are used in the commission of 
identity theft, what steps can be taken to reduce the role of 
Social Security 
numbers in identity theft, why Social Security numbers can be 
purchased on the Internet for as little as $40, current 
undercover operations to prevent the sale of Social Security 
numbers on the Internet, and what is the most common source of 
Social Security numbers used for identity theft.
    I will just mention who we will have on the second panel, 
then call upon Senator Feinstein and our first panel to begin 
its presentation.
    Michelle Suzanne Brown will be one of the witnesses on the 
second panel. She is a victim of identity theft, and she will 
talk about her case and will share with us the very difficult 
experience that she has had in clearing her good name through 
endless telephone calls and correspondence with various credit 
bureaus, credit card companies, her landlord, property manager, 
police departments, the courts, and other government officials. 
She will also discuss her ideas about how to streamline the 
victim reporting process and how to recover and protect from 
this crime.
    Beth Givens, of the Privacy Rights Clearinghouse, will be 
another witness on our second panel. The Clearinghouse has a 
new report, called ``Nowhere to Turn,'' which describes common 
obstacles experienced by identity theft victims and what 
measures can be taken to reduce criminal access to sensitive 
personal information, and how to better provide services to 
identity theft victims.
    Steve Emmert is the current president of the Individual 
Reference Services Group, the IRSG, and the director of the 
information company LEXIS-NEXIS. The IRSG is composed of 14 
leading information industry companies that provide data to 
help identify, verify, or locate individuals. President Emmert 
will testify how the IRSG members limit the transmission of 
personal information to prevent criminal misuse, and testify 
about the progress of self-regulatory efforts, present some 
statistics on enforcement, compliance, and monitoring of member 
groups.
    Finally, Stuart Pratt, executive vice president of 
Government Relations for the Associated Credit Bureaus, the 
ACB, will describe the use of fraud alerts within the credit 
bureau industry, addressing the duration of the alert, how 
credit card issuers use alerts, and he will testify about the 
resources of the ACB, what it has available for identity theft 
victims, and its plans to work with credit card issuers to 
streamline reporting of identity theft.
    I want to thank all of our witnesses for being with us 
today. Before calling on our first panel here, I would like to 
again thank Senator Feinstein for her leadership in helping to 
get the identity theft bill passed into law and her continuing 
interest in seeing that it is enforced properly, and to help 
determine whether it goes far enough and whether we need to do 
some additional things now that we have some experience with it 
to ensure continued protection for consumers. It is always a 
pleasure to work with her.
    I would also like to make this brief announcement. They are 
working on the air conditioning and I hope that we get it fixed 
before this hearing is over.
    Senator Feinstein.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thanks very much, Mr. Chairman, and let 
me thank you for your leadership. Let me thank the panelists, 
some of whom have come from California for this hearing. I 
think it is very important and I am just delighted that you are 
here.
    Identity theft really deserves our committee's very close 
and careful attention. It is, I believe, one of the fastest 
growing crimes in the Nation.
    Now, what is identity theft? It occurs when one person uses 
another person's Social Security number, birth date, driver's 
license, or other identifying information to obtain credit 
cards, car loans, phone plans, or other services in the 
potential victim's name. In other words, you steal someone's 
identity, credit documents, and then go out and commit fraud 
against them.
    Identity thieves get personal information in a myriad of 
ways. They steal wallets and purses containing identification 
cards. They use personal information they can buy on the 
Internet. They steal mail, including pre-approved credit offers 
and credit statements. They fraudulently obtain another's 
credit reports, or they get another's personnel records.
    Every 60 seconds in this country, an American becomes the 
victim of identity theft. Some estimates of the theft run as 
high as 700,000 cases a year. The chairman has quoted the 
Social Security Administration's concerns, but the U.S. Postal 
Inspection Service also reports that 50,000 people a year have 
become victims of identity theft since that Service first began 
collecting information of the crime in the mid-1990's. Treasury 
estimates that identity theft annually causes $3 billion in 
credit card losses.
    Identity theft victims have actually been calling our 
office with story after story of these crimes, and let me give 
you a couple of examples.
    My constituent, Kim Bradbury, of Castro Valley, reported 
that an identity thief obtained a credit card in her name 
through the Internet in just 10 seconds. The false application 
only had her Social Security number and birth date correct. As 
a matter of fact, my staff has compiled a list of about 12 
different Internet websites where personal information can be 
purchased for as little as $25. Let me read their comments on 
one website called digdirt.com.
    Here is one that is not online access, per se, but it will 
blow your mind as to what they offer. You hire them, they do 
the work, they get back to you--medical records, phone numbers, 
assets, et cetera. I am not going to say the names of all these 
websites, but I would like to enter them into the record, if I 
might, Mr. Chairman.
    Senator Kyl. Without objection.
    [The information referred to follows:]

                  List Submitted by Senator Feinstein

    An analysis of the services anyone can use on the World Wide Web 
indicates that many sites sell Social Security numbers.
    The following is just a short list of example sites that traffic in 
personal information.

    (1) www.fastbreakbail.com
    (2) www.infoseekers.com
    (3) www.e-backgroundchecks.com
    (4) www.infotel.net
    (5) www.docusearch.com
    (6) www.1800ussearch.com
    (7) www.locateme.com
    (8) www.informus.com
    (9) www.loc8fast.com
    (10) www.merlindata.com
    (11) www.digdirt.com

    Senator Feinstein. Let me give you another example--Lynn 
Kleinenberg, of Los Angeles. Her husband was an executive at 
Cedars Sinai Medical Center. He died last December. The 
identity thief in her case used her husband's obituary to get 
the maiden name, then went to the Internet, and purchased 
various identification documents. The thief attempted to charge 
$200,000 in diamonds against her account. This included a 
$160,000 wire transfer which she was fortunately able to head 
off when the bank called her about her request.
    Another person, Amy Boyer, a 20-year-old dental assistant 
from Maine, was killed last year by a stalker who bought her 
Social Security number off the Internet for $45 and used the 
number to locate her work address. Incidentally, some of these 
websites provide that you can buy the Social Security number 
for $25 now.
    I have two proposals pending before the Congress today, and 
I hope we can discuss them. The first one prohibits the sale of 
Social Security numbers. The Administration supports this 
legislation. I am hopeful we can pass it. It is Senate bill 
2699, entitled ``The Social Security Number Protection Act.'' 
That would restrict the sale and purchase of Social Security 
numbers. It has some exceptions.
    I am also right now writing legislation to amend that to 
provide for the same stipulations to a driver's license, to 
personal medical information, and personal financial data, and 
to provide an opt-in. In other words, the Internet site would 
have to get the permission of the individual before using their 
Social Security number, their driver's license, their personal 
medical information, or their personal financial information.
    Now, this is very controversial, and we have met with many 
of the companies. They want to put the obligation on the 
individual. Well, if you put that obligation on me, I really 
wouldn't know where to turn or how to opt out. I think if 
somebody is going to make a profit off of my personal financial 
data, my Social Security number, my driver's license, they 
ought to ask me, find me and ask me if they can use it. I very 
deeply believe that, and I believe that enough reputable 
companies now are beginning to do it, so that it is not 
something very extreme to do.
    Senator Kyl, you and I and Senator Grassley have also 
introduced a bill, S. 2328, entitled ``The Identity Theft 
Prevention Act.'' This bill is supported by the Federal Trade 
Commission. It has gone to the Banking Committee. I doubt very 
much the Banking Committee is going to move the bill, but it is 
widely supported. The bill's measures aim to prevent identity 
theft. They give credit card holders written notice at their 
original address if a new card is requested to be sent to a 
different address.
    The bill would impose penalties on credit issuers who 
ignore fraud alerts on a credit report. That is another 
problem. People just ignore it, you know, don't go and check. 
It also directs credit bureaus to notify credit issuers if 
there are inconsistencies in a credit application. This 
legislation would also authorize the development of a single 
reporting form that an identity theft victim could fill out to 
notify creditors of fraudulent charges in their name, and it 
would provide an individual with a free annual credit card 
report. Six States already guarantee free access to these 
reports.
    I think there is really nothing so sacred as an 
individual's good name, and that is one of the reasons why 
identity theft is so devastating. It robs people of their 
reputation and their security that they often spent years 
building, and it can present untold problems. I believe we have 
one witness today who will tell a story of being detained at 
the airport, because of a crime committed in her name by the 
identity thief. She had left the country for vacation, and upon 
her return, Customs wouldn't let her back into the country. She 
is an innocent victim.
    So, Mr. Chairman, the bottom line is I think we need to 
move and pass these bills, particularly the Social Security 
number. The Social Security number is our No. 1 personal 
identifier. It is meant for personal identification. It is not 
meant as a barter tool to be able to encourage commerce, and I 
think it is appropriate for the Federal Government to take some 
action to set some strict restrictions on the use of this 
national personal identifier.
    So I would be hopeful that we would see fit, you and I, to 
move that particular bill. And I hope to introduce tomorrow the 
one that would add to the Social Security number also the 
driver's license, personal financial data, and personal health 
data. There are exceptions which we will put in which I think 
kind of cover, for example, research that is done without 
revealing the personal identity of the person. So for bona fide 
medical purposes, it could be used, or bona fide credit rating 
purposes it could be used, but not to reveal to the public at a 
purchase price the individual data.
    Thank you very much.
    Senator Kyl. Thank you very much. As we discussed, I agree, 
and we will try to move, whether we need to do it in the 
subcommittee and the full committee. We should also talk to the 
Banking Committee, and we will do that.
    I really appreciate all of the witnesses being here today. 
Let's begin with Ms. Bernstein, and then Mr. Huse will follow 
that.

   PANEL CONSISTING OF JODIE BERNSTEIN, DIRECTOR, BUREAU OF 
CONSUMER PROTECTION, FEDERAL TRADE COMMISSION, WASHINGTON, DC; 
  AND JAMES G. HUSE, JR., INSPECTOR GENERAL, SOCIAL SECURITY 
                 ADMINISTRATION, BALTIMORE, MD

                  STATEMENT OF JODIE BERNSTEIN

    Ms. Bernstein. Thank you very much, Mr. Chairman. Thank you 
for including us. I am pleased to be able to present the 
Commission's testimony, but I also wanted to let you and 
Senator Feinstein know just how important your attention on 
this in terms of holding hearings has been for us. It has 
focused attention on American consumers so that they can take 
steps when they can to prevent these occurrences. And, 
importantly, other parts of the Congress have been supportive 
of our efforts, and I really do believe it is because of the 
attention that you have focused on this issue. So thank you for 
that as well.
    I thought what I would do today would be to update you on 
what our complaint data tells us about ID theft and how we can 
all perhaps do a better job of trying to reduce identity theft 
and fraud. As Senator Feinstein mentioned, we, the Commission, 
has supported the legislation that you all have introduced, and 
we thank you for that as well. We think that will be a great 
help.
    So here is what we have been able to do, and I think we 
have made great strides in victim assistance and in data-
sharing. We do have a slide. I have my--I call her my technical 
guru, but at another hearing she was asked to testify. So 
perhaps I shouldn't introduce her that way, but she is 
presenting the slides.
    We distributed more than 83,000 copies of our popular 
brochure, ``When Bad Things Happen to Your Good Name.'' Our 
colleagues at the Social Security Administration distributed 
115,000 copies on their own, and our Web version has been 
viewed by over 110,000 consumers. The ID theft website, 
www.consumer.gov/idtheft, has received about 110,000 visits. 
These are very positive trends because we know that informed 
consumers can protect themselves from some of the harm caused 
by identity theft.
    During my testimony in March, I also spoke about our 
complaint clearinghouse, the central repository of identity 
theft complaints, pursuant to the legislation passed earlier. 
We pushed this project forward and we have had really terrific 
results, I think.
    First, we made the complaint data a click away for the law 
enforcement officers that will prosecute the crimes. Law 
enforcement officers can easily access complaints on Consumer 
Sentinel, and that is a web-based system linking more than 250 
agencies to a single and central body of consumer fraud 
complaint data. The system now has more than 200,000 consumer 
fraud complaints and has resulted in hundreds of successful 
civil and criminal prosecutions. Consumer Sentinel users have 
to sign a confidentiality agreement and then they have access 
to the ID theft clearinghouse data.
    Using a password, law enforcers use a desktop PC to link to 
a secure website from which they can search for ID theft 
perpetrators or victims in their backyards and seek out trends 
and patterns. As you can see from the slide, we have developed 
different ways to search for the data to enable law enforcement 
users to customize their searches and to retrieve precisely the 
data they are looking for. For example, users can also place 
alerts on certain records, flagging a target as under 
investigation or as an open file. In addition, FTC 
investigators and data analysts will be scrutinizing the data 
and we will refer cases to appropriate agencies. I think what 
you can see from this is we have been trying to be at least as 
smart as the ID thieves are in using the new technology, and 
hopefully we will succeed.
    We launched the web availability of our system just last 
week, and already Social Security's Inspector General, Jim 
Huse, sitting with me, the Postal Inspection Service, the 
Department of Justice, and State attorneys general are on the 
system, reviewing and analyzing the data through the website.
    We are also finalizing an agreement with Social Security--I 
think we will do it probably very shortly--to transfer their 
complaint data into the central clearinghouse, which will then 
enrich the clearinghouse. It will be increasingly valuable as 
it grows. Since its creation, the launching of the online 
complaint form, and the establishment of our toll-free consumer 
complaint line, we have received more than 20,000 telephone 
calls and 1,500 consumer complaints via our online complaint 
form. That was a very significant development for people to be 
able to use the form right on the website.
    In March, I told you that we have received 400 calls a week 
to the toll-free number. That number has doubled, to about 800 
to 850 calls a week. We expect the rate to continue to climb, 
and we expect and hope we will be able to manage the new volume 
of calls.
    The other clearinghouse news to share is what we have 
learned from the data, and again we have a slide. Half of the 
ID theft complaints report credit card fraud; that is, the 
thief either opened a new account in their name or took over an 
existing account. Approximately a quarter report that identity 
theft opened up telephone, cellular, or other utility services 
in their name. Bank fraud is the third category, and about 16 
percent reported that a checking or savings account had been 
opened in their name, and or that fraudulent checks had been 
written. Approximately 11 percent reported that identity theft 
obtained a loan, such as a car loan, in their name.
    These figures have been consistent across geographic 
regions in the country, and the top sources of complaints in 
the Nation, as well as in your States, are also shown on our 
reports; that is, Senator Feinstein, for example, you can get 
the complaints that are from the State of California, and we 
expect to be able to provide that to law enforcement officials 
in those States.
    So what about these trends? With credit card fraud 
appearing in more than half of the complaints, it is time, we 
think, to take a good hard look at business practices. As you 
know, the Commission has supported the recent legislative 
proposals that require credit grantors to take extra steps to 
verify change of address requests for credit accounts.
    We also endorse requiring credit bureaus to tell a consumer 
when a credit application is made in the consumer's name but 
with a different address. Each of these measures will help cut 
back on the top category of complaints. Those are account 
takeovers and fraudulently opened credit accounts. Free annual 
credit reports may also encourage consumers to review their 
credit reports and allow them to detect early warnings of 
fraud. There are additional requirements in 2328 that I won't 
detail because we have already discussed them. We think they 
will be very, very helpful.
    In closing, I would add that there are steps that we at the 
FTC would like to implement to streamline and simplify the 
process of reporting and responding to ID theft. We want to 
implement an electronic notification system so that when a 
consumer tells us that their identity has been stolen, we can 
transmit that information to one of the three or all of the 
three credit reporting agencies and they can enter a prominent 
fraud alert on that consumer's file, on all three of them.
    We can only take on this project and others like it by 
working together with you, with the public, and the private 
sector groups toward this common goal. We think it would go a 
long way, and we remain prepared to do that if we receive that 
cooperation from the industry involved.
    I would be happy to answer any questions you may have, I 
presume, following Jim's testimony. Thank you.
    [The prepared statement of Ms. Bernstein follows:]

                 Prepared Statement of Jodie Bernstein

    Mr. Chairman Kyl, and members of the Subcommittee, I am Jodie 
Bernstein, Director of the Bureau of Consumer Protection, Federal Trade 
Commission (``FTC'' or ``Commission'').\1\ I appreciate the opportunity 
to present the Commission's views on the important issue of identity 
theft, and to describe to you the impressive strides we have made in 
implementing the Identity Theft and Assumption Deterrence Act.\2\
---------------------------------------------------------------------------
    \1\ The views expressed in this statement represent the views of 
the Commission. My oral presentation and response to questions are my 
own, and do not necessarily represent the views of the Commission or 
any Commissioner.
    \2\ Pub. L. No. 105-318, 112 Stat. 3007 (1998) (codified at 18 
U.S.C. Sec. 1028).
---------------------------------------------------------------------------
    The fear of identity theft has gripped the public as few consumer 
issues have. Consumers fear the potential financial loss from someone's 
criminal use of their identity to obtain loans or open utility 
accounts. They also fear the long lasting impact on their lives that 
results from the denial of a mortgage, employment, credit or an 
apartment lease when credit reports are littered with the fraudulently 
incurred debts of an identity thief.\3\
---------------------------------------------------------------------------
    \3\ Data from the Identity Theft Clearinghouse, our central 
repository of identity theft complaints, bear out these fears. See 
discussion at pp. 7-10.
---------------------------------------------------------------------------
    The Identity Theft and Assumption Deterrence Act (``the Identity 
Theft Act'') has raised the public's appreciation for the hardship 
suffered by identity theft victims. The Identity Theft Act's focus on 
the individual as the victim--rather than just the financial 
institutions that often absorb the bulk of the financial loss--has 
brought focus to business practices that may place consumers at higher 
risk of having their identities stolen. It has heightened consumers' 
awareness of the ways they can change their everyday practices to 
minimize the risk that they will be victimized. The Federal Trade 
Commission has worked to strengthen these measures through our 
responsibilities under the Act. In particular, we have expanded our 
consumer education campaign, encouraged increased use of our toll-free 
help line, made our Identity Theft Clearinghouse available to law 
enforcement through a secure website, continued to forge partnerships 
with other law enforcement offices, and reached out to private industry 
to help identify ways to establish identity theft prevention best 
practices. By letter dated June 1, 2000, we also conveyed our support 
for S. 2328, a bill introduced by Senator Feinstein, Chairman Kyl and 
Senator Grassley, that seeks to protect consumers by providing them 
with access to credit-related information that may reveal indicia of 
identity theft. The bill would also restrict the release of information 
through the sale of ``credit header'' information, and entitle 
consumers to free annual credit reports.
    The Commission's participation in the March Summit on Identity 
Theft, hosted by the Department of Treasury, marked the beginning of a 
new dialogue among government, private sector and consumer groups on 
these critical issues. We continue to look for ways to expand on these 
efforts.

             I. MEETING THE GOALS OF THE IDENTITY THEFT ACT

    In earlier testimony before this Committee, the Commission 
described the ways in which we have carried out our responsibilities 
under the 1998 Identity Theft Act.\4\ Since that time, we have built on 
these achievements.
---------------------------------------------------------------------------
    \4\ The Commission testified before this subcommittee on March 7, 
2000. We also testified before this subcommittee in May 1998 in support 
of the Act. Following the passage of the Act, the Commission testified 
again, in April 1999, before the House Subcommittee on 
Telecommunications, Trade and Consumer Protection and the Subcommittee 
on Finance and Hazardous Materials of the Commerce Committee. That 
testimony focused on identity theft in the financial services industry.
---------------------------------------------------------------------------

A. Centralized Complaint Handling--877 ID THEFT
    The Commission established its toll-free telephone number, 1-877-ID 
THEFT (438-4338) to help consumers avoid or resolve identity theft 
problems. The Identity Theft Hotline phone counselors also enter 
information from the consumer complaints into the centralized Identity 
Theft Data Clearinghouse. In operation since November 1, 1999, the 
Identity Theft Hotline now receives between 800 and 850 calls per 
week.\5\ About two thirds of the calls are from victims, the remaining 
calls coming from consumers who are looking for information on ways to 
minimize their risk of identity fraud.
---------------------------------------------------------------------------
    \5\ That figure has doubled since March, when we reported 400 calls 
a week. To date, the hotline has received more than 20,000 calls.
---------------------------------------------------------------------------
    The telephone counselors provide victims of identity theft with 
specific information about how to try to prevent additional harm to 
their finances and credit histories. The phone counselors advise 
callers to contact each of the three consumer reporting agencies to 
obtain copies of their credit reports and request that a fraud alert be 
placed on their credit report.\6\ Fraud alerts request that the 
consumer be contacted when new credit is applied for in that consumer's 
name. We advise consumers to request copies of their credit reports, 
and explain how to review the information on the reports carefully to 
detect any additional evidence of identity theft. Because the credit 
reports of identity theft victims often reflect the fraudulent accounts 
opened or other misinformation, the counselors inform callers of their 
rights under the Fair Credit Reporting Act and provide them with the 
procedures for correcting their credit report.\7\ The counselors advise 
consumers to contact each of the creditors or service providers where 
the identity thief has established or accessed an account, and to 
follow up in writing by certified mail, return receipt requested. Where 
the identity theft involves ``open end'' credit accounts,\8\ consumers 
are advised on how to take advantage of their rights under the Fair 
Credit Billing Act, which, among other things, limits their 
responsibility for unauthorized charges to fifty dollars in most 
instances. Consumers who have been contacted by a debt collector trying 
to collect on debts incurred by the identity thief are advised of their 
rights under the Fair Debt Collection Practices Act, which limits debt 
collectors' practices in their collection of debts.
---------------------------------------------------------------------------
    \6\ The three consumer reporting agencies are Equifax Credit 
Information Services, Inc., Experian Information Solutions, Inc. and 
Trans Union, LLC.
    \7\ In addition to fraudulently acquiring accounts or loans, the 
identity thieves also may register a change of address in the victim's 
name, routing bills and other correspondence to a different address. In 
that way, it may take months for the victim to realize that his/her 
identity has been hijacked.
    \8\ The Fair Credit Billing Act generally applies to ``open end'' 
credit accounts, such as credit cards, revolving charge accounts, and 
overdraft checking accounts. It does not cover installment contracts 
such as loans or extensions of credit that are repaid on a fixed 
schedule.
---------------------------------------------------------------------------
    In addition, the FTC phone counselors advise consumers to notify 
their local police departments, both because local law enforcement may 
be in the best position to catch and bring the perpetrator to justice, 
and because a police report is among the best means of demonstrating to 
would-be creditors and debt collectors that they are genuine victims of 
identity theft. More than half the states have enacted their own 
identity theft laws, and our counselors, in appropriate circumstances, 
will refer consumers to other state and local authorities for potential 
criminal investigation or prosecution.

B. Outreach and Consumer Education
    The FTC also reaches consumers through the Internet. The FTC's 
identity theft website--www.consumer.gov/idtheft--gives tips on how 
consumers can guard against identity theft, warns consumers about the 
latest identity theft schemes and trends, and provides access to 
consumer education materials on identity theft. This website has 
received more than 108,000 hits since November, 1999. The site also 
links to a secure complaint form on which identity theft victims can 
enter the details of their complaints online, allowing consumers to 
contact the Commission at all times. After review by FTC staff, these 
complaints are entered into the Clearinghouse. To date we have received 
more than 1500 complaints through this electronic form.
    The Federal Trade Commission continues to distribute the 
comprehensive consumer guide: ID Theft: When Bad Things Happen to Your 
Good Name. Developed in consultation with more than a dozen federal 
agencies,\9\ this booklet provides consumers with practical tips on how 
best to protect their personal information from identity thieves, 
summarizes the various federal statutes that protect consumer victims 
of identity theft, and details the victim assistance mechanisms 
available. The Federal Trade Commission has distributed more than 
83,000 copies of the booklet, and is in the process of revising the 
booklet for a second, and larger printing. The Social Security 
Administration has also printed and distributed 115,000 copies of When 
Bad Things Happen.\10\
---------------------------------------------------------------------------
    \9\ These include: Department of Justice; Federal Bureau of 
Investigation; Federal Communications Commission; Federal Deposit 
Insurance Corporation; Federal Reserve Board; Internal Revenue Service; 
National Credit Union Administration; Office of the Comptroller of the 
Currency; Office of Thrift Supervision; Social Security Administration; 
United States Postal Inspection Service; United States Secret Service; 
United States Securities and Exchange Commission; and United States 
Trustee.
    \10\ The FTC has provided the booklet on zip disk to other agencies 
who are interested in printing additional copies.
---------------------------------------------------------------------------

C. Identity Theft Clearinghouse--Launched Online
    The Identity Theft Act authorized the Commission to establish a 
central repository of consumer complaints about identity theft, and 
refer appropriate cases to law enforcement for prosecution. The 
Identity Theft Complaint Database, which was activated in November 
1999, provides specific investigative material for law enforcement and 
larger, trend-based information providing insight to both private and 
public sector partners on ways to reduce the incidence of identity 
theft. Currently, the Clearinghouse contains the data from consumers 
who contact the FTC through the toll free number or website. We are 
pursuing ways to collect complaint data from other agencies and private 
sector entities to allow Clearinghouse users from law enforcement 
agencies to see as much complaint data on identity theft as 
possible.\11\
---------------------------------------------------------------------------
    \11\ Our Consumer Sentinel database, which houses consumer fraud 
complaints, receives complaint data from Better Business Bureaus, 
consumer outreach organizations and others. We are looking to replicate 
this approach with identity theft complaints.
---------------------------------------------------------------------------
    With a database as rich as we envision the Clearinghouse becoming, 
we can and do refer cases for potential prosecution. To maximize use of 
the data, we now provide law enforcement partners with direct access to 
the Clearinghouse through Consumer Sentinel, our secure website for 
sharing complaints and other information with consumer protection law 
enforcers. Starting this month, law enforcement and appropriate 
regulatory offices can access the Clearinghouse through their desktop 
personal computers. This access enables them to readily and easily spot 
identity theft problems in their own backyards, and to coordinate with 
other law enforcement officers where the database reveals common 
schemes or perpetrators. The FTC will continue to comb through the data 
to spot cases for referral, but has also enabled others to use the data 
to ferret out the bad actors for prosecution.
    The Identity Theft Act also authorized the Commission to share 
complaint data with appropriate entities,'' \12\ including specifically 
the three major consumer reporting agencies and others in the financial 
services industry.\13\ The Commission does not envision providing 
access to the complete database for these private sector entities. 
Unfettered access could interfere with law enforcement efforts. FTC 
data analysts can, however, identify patterns that reveal a business or 
business practice that exposes consumers to a high risk of identity 
theft. We will forward appropriate information about these complaints 
to the entities involved so they can evaluate and revise those 
practices.\14\ Similarly, we plan to share limited complaint data with 
a business if data reveal that that business fails to respond to 
legitimate consumer complaints about identity theft or frustrates their 
efforts to correct misinformation on their credit reports.
---------------------------------------------------------------------------
    \12\ The Identity Theft Assumption and Deterrence Act provides, in 
pertinent part, ``the Federal Trade Commission shall establish 
procedures to * * * refer [identity theft] complaints * * * to 
appropriate entities, which may include referral to * * * the 3 major 
national consumer reporting agencies.'' 18 U.S.C. Sec. 1028 (note).
    \13\ The unique role of the consumer reporting agencies in 
resolving the problems of identity theft victims is discussed below.
    \14\ S. 2328, introduced by Senator Feinstein, Chairman Kyl and 
Senator Grassley of this Subcommittee, identifies a set of best 
practices that would minimize consumers' exposure to identity theft. 
For example, S. 2328 would require that creditors notify consumers if 
they receive a change of address notification.
---------------------------------------------------------------------------
        II. WHAT THE CLEARINGHOUSE TELLS US ABOUT IDENTITY THEFT

    The Identity Theft Act recognized the importance of creating a 
single repository for identity theft complaints. Accordingly, the 
Commission established the Identity Theft Clearinghouse to collect and 
consolidate these complaints. We are already seeing the fruits of this 
effort. Our basic complaint data show that the most common forms of 
identity theft reported during the first seven months of operation 
were:

    <bullet> Credit Card Fraud.--Approximately 54 percent of consumers 
reported credit card fraud--i.e., a credit card account opened in their 
name or a ``takeover'' of their existing credit card account;
    <bullet> Communications Services.--Approximately 26 percent 
reported that the identity thief opened up telephone, cellular, or 
other utility service in their name;
    <bullet> Bank Fraud.--Approximately 16 percent reported that a 
checking or savings account had been opened in their name, and/or that 
fraudulent checks had been written; and
    <bullet> Fraudulent Loans.--Approximately 11 percent reported that 
the identity thief obtained a loan, such as a car loan, in their name.

    Not surprisingly, the states with the largest populations account 
for the largest numbers of complainants and suspects. California, New 
York, Florida, Texas, and Illinois, in descending order, represent the 
states with the highest number of complainants.\15\ About 55 percent of 
victims calling the identity theft hotline report their age. Of these, 
40 percent fall between the 30 and 44 years of age. Approximately 26 
percent are between age 45 and 64, and another 25 percent are between 
age 19 and 29. About 7 percent of those reporting their ages are 65 and 
over; and slightly over 2 percent are age 18 and under.
---------------------------------------------------------------------------
    \15\ Texas and Illinois had an equal number of complaints.
---------------------------------------------------------------------------
    The data also reveal information about the perpetrators. Almost 60 
percent of the caller-complainants provided some identifying 
information about the identity thief, such as a name, address, or phone 
number. More than one quarter of those victims reported that they 
personally knew the suspect. We also are assessing the data on the 
monetary impact of this theft. Some complainants provided estimates of 
the dollar amounts obtained by the thief, because they have received 
the resulting bills or been notified of the resulting bad debts. The 
range of dollar amounts reported varies widely, with approximately 34 
percent of complainants reporting theft of under $1,000; approximately 
35 percent of complainants reporting theft totaling between $1,000 and 
$5,000, approximately 13 percent of complainants reporting theft 
totaling between $5,000 and $10,000, and approximately 18 percent of 
complainants reporting theft of over $10,000.
    Consumers also report the harm to their reputation or daily life. 
The most common non-monetary harm reported by consumers is damage to 
their credit report through derogatory, inaccurate information. The 
negative credit information leads to the other problems most commonly 
reported by victims, including loan denials, bounced checks, and 
rejection of credit cards. Identity theft victims also report repeated 
contacts by debt collectors for the bad debt incurred by the identity 
thief. Many consumers report that they have to spend significant 
amounts of time resolving the problems caused by identity theft.
    The Clearinghouse data also reveal that consumers are often 
dissatisfied with the consumer reporting agencies. The leading 
complaints by identity theft victims against the consumer reporting 
agencies are that they provide inadequate assistance over the phone, or 
that they will not reinvestigate or correct an inaccurate entry in the 
consumer's credit report. In one fairly typical case, a consumer 
reported that two years after initially notifying the consumer 
reporting agencies of the identity theft, following up with them 
numerous times by phone, and sending several copies of documents that 
they requested, the suspect's address and other inaccurate information 
continues to appear on her credit report. In another case, although the 
consumer has sent documents requested by the consumer reporting agency 
three separate times the consumer reporting agency involved still 
claims that it has not received the information.
    Consumers also report problems with the institutions that provided 
the credit, goods, or services to the identity thief in the consumer's 
name. These institutions often attempt to collect the bad debt from the 
victim, or report the bad debt to a consumer reporting agency, even 
after the consumer believes that he or she has established the illegal 
fraud. Consumers further complain that these institutions' inadequate 
or lax security procedures failed to prevent the identity theft in the 
first place; customer service or fraud departments were not responsive; 
or the companies refused to close or correct the unauthorized accounts 
after notification by the consumer.
    Callers to the hotline are not limited to identity theft victims. 
Indeed, approximately 36 percent of the callers simply requested 
information on identity theft. Many felt they were vulnerable to 
identity theft because, for example, their wallets had recently been 
lost or stolen (23 percent); someone had attempted to open an account 
in their name (19 percent); or they had given out their personal 
information to someone they did not know (7 percent).\16\
---------------------------------------------------------------------------
    \16\ Our data analysis covers the period from November 1, 1999 
through May 31, 2000.
---------------------------------------------------------------------------
                            III. NEXT STEPS

    The Commission has made great strides in assisting consumers and 
law enforcement to combat identity theft, but recognizes that much 
remains to be done. As mentioned earlier, the Identity Theft Act 
authorizes the Commission to refer consumer identity theft complaints 
and information to the three major national consumer reporting agencies 
and other appropriate entities. The Commission envisions a streamlined 
process that would decrease the amount of time spent by consumer 
victims correcting credit report errors. Paramount among these efforts 
would be the ability of a consumer to make a single call to report him 
or herself as a victim of identity theft to the FTC or one of the three 
major national consumer reporting agencies, and to have a fraud alert 
posted on the credit reports from each of the reporting agencies. 
Currently, a victim of identity theft must notify each of the three 
national consumer reporting agencies separately, and then typically 
make additional calls to the FTC and to all creditors. The Commission 
looks forward to working with the three major national consumer 
reporting agencies to develop a complementary process to allow identity 
theft victims to share the details of their complaints simultaneously 
with the FTC and the national consumer reporting agencies.
    Further, the Commission will soon begin sharing certain limited 
information from its Identity Theft Clearinghouse with businesses whose 
practices are frequently associated with identity theft complaints. Our 
goal is to encourage and enable industry and individual companies to 
develop better fraud prevention practices and consumer assistance 
techniques. To that end, the Commission, in conjunction with the 
Department of Treasury and the other federal agencies who participated 
in the Identity Theft Summit, will convene a workshop for law 
enforcement and industry on Identity Theft victim assistance and 
prevention in the fall of 2000.

                             IV. CONCLUSION

    The Identity Theft Clearinghouse, our toll free number, and the 
consumer education campaign have helped us begin to address the serious 
problems associated with identity theft. Heightened awareness by 
consumers and businesses will also help reduce the occurrences of this 
fraud. We look forward to continued collaboration and cooperation in 
these efforts. The FTC also looks forward to working with the 
Subcommittee to find ways to prevent this crime and to assist its 
victims.

    Senator Kyl. Thank you very much, Ms. Bernstein. That is a 
great update, and it shows both what is happening as a result 
of our legislation and what more needs to be done, exactly what 
we are all about here this morning.
    Mr. Huse, thank you for being here.

                STATEMENT OF JAMES G. HUSE, JR.

    Mr. Huse. Thank you, Mr. Chairman, Senator Feinstein. I 
want to thank you both for holding this hearing which focuses 
on the victims of identity fraud. While it is the victims for 
whom the Identity Theft Act was originally passed, and for whom 
we are all working to stem the tide of identity theft, it is 
also the victims whose plight is sometimes overlooked in the 
day-to-day business of enacting and enforcing these laws.
    We are each faced with a challenge in combatting identity 
theft and protecting its victims. The challenge facing my 
office is to reduce the number of victims by preventing these 
crimes in the first instance, and punishing their perpetrators 
when they do occur. The challenge facing the Congress is to 
provide offices such as mine with the necessary tools to do so 
successfully.
    The importance of meeting these challenges was evident in a 
survey reported in the June 13 issue of Investor's Business 
Daily, in which the Chubb Group of insurance companies found 
that 44 percent of 1,000 Americans polled had been victims of 
identity fraud. This is a staggering statistic, but one which 
is not surprising, as even at its simplest level the use of a 
Social Security number to commit identity fraud leaves a trail 
of victims in its wake.
    Let me tell you about Waverly Burns, a Supplemental 
Security Income recipient from Milwaukee whose story I have 
used in the past as a classic identity fraud illustration. Mr. 
Burns stole another person's SSN and used it to secure 
employment as a cleaning crew supervisor. By hiding his work 
behind this new identity, he could continue to draw his SSI 
benefits under his own Social Security number. He went on to 
steal over $80,000 in computer equipment from the Wisconsin 
Supreme Court, obtained a State of Wisconsin identity card 
using the stolen SSN, opened bank accounts in the name of his 
victim, and filed fraudulent tax returns.
    Our special agents arrested Mr. Burns in Chicago. He was 
sentenced to 21 months in prison and ordered to pay over 
$62,000 in restitution, including the full amount of benefits 
fraudulently obtained from SSA. Mr. Burns' case illustrates not 
only the central role of the SSN in identity theft crimes, but 
how a single such crime can have multiple victims. In Mr. 
Burns' case, the victims included the Social Security 
Administration, the Wisconsin Supreme Court, the financial 
institutions involved, the Internal Revenue Service, the State 
of Wisconsin, and the proper owner of the Social Security 
number.
    In all likelihood, other ancillary victims included credit 
reporting agencies and other members of the public, including 
each of us in this room, who will have to bear the costs of Mr. 
Burns' misdeeds. Identity theft is a crime in which we are all 
victims.
    My office employs an investigative staff of fewer than 300, 
and our primary responsibility must be to the programs and 
operations of the Social Security Administration. We alone 
cannot hope to stem the tide of SSN misuse and identity fraud. 
We are, however, taking every step we can in that direction.
    A year ago, our Office of Investigations launched an SSN 
misuse pilot project in five cities across the Nation, working 
jointly with Federal and State law enforcement agencies to 
target perpetrators of identity crimes and SSN misuse. By 
joining forces with other law enforcement agencies in a task 
force environment, we were able to pool resources and share 
information aimed at fighting identity fraud.
    Some of the accomplishments of those offices and the steps 
they are taking to aid identity theft victims are discussed in 
my written testimony, but already the pilot projects have been 
an unparalleled success. In their first year, 197 
investigations have been opened resulting in 61 convictions. 
U.S. attorneys' offices and outside law enforcement entities 
have enthusiastically welcomed these pilots and have thanked us 
for taking the investigative lead.
    Because of the increased role that the Internet is playing 
in SSN misuse and identity theft, we have expanded the scope of 
these pilots to include the sale of Social Security cards over 
the Internet. Using undercover purchases of Social Security 
cards, we can determine which vendors actually provide buyers 
with fraudulent documents and which merely take the money and 
run. We are very optimistic that we will be able to shut down 
several important Internet distributors of false identification 
documents through this initiative.
    On the other side of e-commerce, we have recently launched 
another operation targeted not at those who sell false 
identification documents over the Internet, but at those who 
buy them. This effort has two goals. First, we can locate and 
stop those who purchase counterfeit Social Security cards that 
might be used in identity theft crimes. And, second, it will 
enable us for the first time to determine both the scope of 
Internet trafficking in false identification documents and the 
many ways one can use a false SSN.
    Our efforts have been considerable and are aimed at 
maximizing the impact of limited resources through 
collaborative efforts with other agencies, particularly the 
Federal Trade Commission. Still, I would be remiss if I did not 
point out that there still exists a legislative void that to 
some extent fosters the misuse of SSN's for purposes of 
identity theft.
    Senate bill 2328, introduced by Senator Feinstein, together 
with you, Mr. Chairman, and Senator Grassley; Senate bill 2554, 
introduced by Senator Gregg, together with Senator Dodd; and 
Senator Feinstein's amendment to Senate bill 2448, which would 
prohibit the sale of Social Security numbers, all represent 
significant steps in the right direction.
    Together, these bills create front-end limits on the use of 
Social Security numbers, and authorize criminal and civil 
sanctions and administrative penalties when violations occur. 
My staff would be happy to assist you in combining all of this 
legislation into a comprehensive bill that would enable us to 
bring the full authority of the U.S. Government to bear against 
those who would buy, sell, or otherwise misuse SSN's.
    I welcome your interest in filling this legislative void, 
one aspect of which was the subject of a recent op ed column by 
the distinguished New York Times columnist William Safire, in 
which he expressed shock that no law prohibited compelling an 
individual to disclose his or her SSN. I am no less concerned 
than Mr. Safire that this and other acts, such as the sale, 
purchase, and public display of SSN's, remain legal. My office 
shares your concern for the victims of identity theft and is 
committed to providing those victims with the surest form of 
assistance, ensuring that the crime never occurs in the first 
place.
    I welcome the subcommittee's continued support of our 
efforts and would be happy to answer any questions.
    [The prepared statement of Mr. Huse follows:]

                Prepared Statement of James G. Huse, Jr.

    Good Morning Mr. Chairman and members of the Subcommittee. I want 
to thank you for holding this hearing on identity theft. Previously our 
attention concentrated on the challenges we faced in implementing the 
Identity Theft and Assumption Deterrence Act of 1998 (Identity Theft 
Act). Today, we focus on ways to prevent identity theft and how 
individuals can protect themselves from this crime, or if already 
victimized, repair the damage that has been done. Too little attention 
has been paid to the victims of this increasingly prevalent crime and 
there are other witnesses appearing today who can address the personal 
aspects of identity theft. My office is committed to ensuring that this 
type of crime is prevented, and if not prevented, then detected and 
sent forward for prosecution.
    SSN misuse and the crime of identity theft are becoming so 
pervasive in our society, that it has become the subject of polls and 
an issue in the current presidential campaign. A June 13, 2000 article 
in Investor's Business Daily reported that an identity theft survey by 
the Chubb Group of Insurance Companies showed that 44 percent of those 
polled had been victims of identity theft. In fiscal year 1999, our 
Fraud Hotline received over 75,000 allegations with about 62,000 of 
these involving SSN misuse. Specifically, 32,000 had SSN misuse 
implications involving SSA programs and an additional 30,000 
represented SSN misuse with no direct program implications. I am sure 
you will agree that these are alarming statistics.

        THE EVOLUTION OF THE SSN INTO A TOOL FOR IDENTITY FRAUD

    The Social Security number (SSN) is frequently the starting point 
for identity theft crimes. The SSN was created 65 years ago for the 
sole purpose of tracking the earnings of working Americans in order to 
implement and maintain the new Social Security system. The SSN was 
never intended to be the de facto national identifier that it has 
slowly become. For example, it was not until 1967 that the Department 
of Defense adopted the SSN in lieu of a military service number for 
identifying Armed Forces personnel. The SSN quickly became an integral 
part of enrolling in school, receiving financial assistance, applying 
for drivers' licenses; opening bank accounts, applying for credit, and 
myriad other activities. Today, Americans are asked for their Social 
Security number as a part of any number of transactions in both the 
public and private sectors. The SSN has grown to become one of the most 
critical pieces of personal information.

               REASONS BEHIND THE INCREASE IN SSN MISUSE

    Perhaps the most obvious reason for the increase in SSN misuse is 
because people come from all over the world to take advantage of our 
free enterprise system. There are no realistic numbers available on how 
many tourists, students, and migrants remain in this country after 
their visas expire and work under a false SSN. The popularity and 
availability of the Internet in this day and age provides for an 
international marketplace for the sale of SSN's and if one is 
enterprising a new identity.

                 CRIMES COMMITTED WITH FRAUDULENT SSN'S

    We have only begun to scratch the service in discovering the 
innovative ways in which the SSN is used to commit identity theft 
crimes. The most obvious example is the assumption of another person's 
name and SSN for purposes of committing simple financial crimes--
today's version of the wild west bank robberies.
    For example, our Special Agents, working as part of the Delaware 
Financial Crimes task force, investigated Zaid Gbolahan Jinadu as he 
schemed to defraud several federally insured financial institutions. He 
solicited the assistance of bank employees to obtain SSN's and other 
identifying data to open fraudulent credit card and bank accounts. 
These compromised employees also helped him to take over current 
accounts, make fraudulent wire transfers, receive cash advances, and 
negotiate numerous checks. Mr. Jinadu was indicted by a Federal grand 
jury in the District of Delaware on October 26, 1999 on four counts: 
one of bank fraud, one of identity theft, one of fraud in connection 
with access devices, and one of SSN misuse. On December 20, 1999, Mr. 
Jinadu and his co-defendants entered a guilty plea to the bank fraud 
and identity theft counts. Mr. Jinadu is responsible for fraud losses 
totaling approximately $281,122. The total known losses to financial 
institutions due to the actions of Mr. Jinadu and his claimed 
associates over the past 4 years exceeds $4 million.
    The use of SSN's to commit identity theft can have a direct impact 
on SSA programs. Waverly Burns, a Supplemental Security Income (SSI) 
recipient in Milwaukee, stole another person's SSN and used it to 
secure employment as a cleaning crew supervisor. By taking on a new 
identity, he continued to draw SSI payments based on disability while 
also drawing a salary which would disqualify him as a benefit 
recipient. Under his new identity, Mr. Burns stole over $80,000 in 
computer equipment from the offices of the Wisconsin Supreme Court, 
used the stolen SSN to obtain a State of Wisconsin identity card, to 
open bank accounts in the victim's name, and filed fraudulent tax 
returns. Office of the Inspector General (OIG) Special Agents arrested 
Mr. Burns in Chicago. He was sentenced to 21 months in prison and 
ordered to pay over $62,000, including the full amount of benefits 
fraudulently obtained from SSA.
    Mr. Burns' case illustrates how identity theft through the use of 
SSN's can have many victims--in his case SSA, the Wisconsin Supreme 
Court, the financial institutions, the Internal Revenue Service, the 
State of Wisconsin, and the proper owner of the SSN were all victims. 
In all likelihood, other ancillary victims included credit reporting 
bureaus and other members of the public who will have to bear the cost 
of Mr. Burns' misdeeds. Identity Theft is a crime in which we are all 
victims.
    These examples show how the SSN is at the core of assuming the 
identity of another or establishing wholly fictitious identities. 
Unscrupulous individuals can hide behind either while committing a 
broad range of crimes. I would like to inform you of the initiatives 
this office has taken and how we expect to keep pace, if not a step 
ahead, of this escalating problem.

                    EXISTING AND FUTURE INITIATIVES

     The OIG's efforts in combating the use of SSN's to commit identity 
theft crimes is widespread, but our small investigative staff, whose 
primary responsibility must be to the programs and operations of the 
Social Security Administration, cannot hope to stem the tide. This is 
not to say, however, that we are not taking all available steps in that 
direction. A year ago, our Office of Investigations launched an SSN 
misuse pilot project in five cities across the Nation, working jointly 
with Federal and State law enforcement agencies to target perpetrators 
of identity crimes and SSN misuse. By joining forces with other law 
enforcement agencies in a task force environment, we are able to pool 
resources and share information aimed at fighting identity fraud. In 
St. Louis, we have entered into a Memorandum of Understanding with the 
United States Attorney's Office, under which a Federal prosecutor has 
been assigned to our task force, facilitating additional prosecutions. 
In Cleveland, in addition to its investigatory function, the task force 
is developing a letter to inform individuals whose identities have been 
compromised of actions they can take to minimize the effects of the 
crime. And in Milwaukee, the task force is making presentations to 
local law enforcement agencies, educating and sensitizing them to the 
array of identity theft crimes.
    Pilot projects are in the early stages in two additional cities, 
and further expansion is planned. Already, the pilot projects have been 
an unparalleled success; in the first year we have opened 197 
investigations which have already resulted in 61 convictions. United 
States Attorneys' Offices and outside law enforcement entities have 
enthusiastically welcomed such pilots and have thanked our office for 
taking the investigative lead.
    Because of the increasing role that the Internet is playing in SSN 
misuse and identity theft, we have expanded the scope of these pilots 
to initiate programs in this area. Specifically they are investigating 
the sale of Social Security cards over the Internet. Using undercover 
purchases of Social Security cards, we can determine which vendors 
actually provide the documents and which ones take the money and run. 
Under either scenario, working with Federal, State and local 
authorities allows us to take action that extends beyond our stated 
mission of SSA program fraud and will prevent the conduct of identity 
theft crimes. We are very optimistic that we will be able to shut down 
several important Internet distributors of false identification 
documents.
    On the other side of e-commerce, we started another operation 
targeted not at those who sell false identification documents over the 
Internet, but at those who buy them. This effort has two goals. First, 
we can locate and stop those who purchase counterfeit Social Security 
cards that might be used in identity theft crimes. Second, it will 
enable us, for the first time, to determine both the scope of Internet 
trafficking in false identification documents and the many ways one can 
use a false SSN.

                        THE NEED FOR LEGISLATION

    While our efforts have been considerable, and are aimed at 
maximizing the impact of limited resources through collaborative 
efforts with other agencies, I would be remiss if I did not point out 
that there still exists a legislative void that, to some extent, 
fosters the misuse of SSN's for purposes of Identity Theft. Senate Bill 
2328, introduced by Senator Feinstein, together with Senators Kyl and 
Grassley, Senate Bill 2554, introduced by Senator Gregg, together with 
Senator Dodd, and Senator Feinstein's amendment to Senate Bill 2448, 
which would prohibit the sale of Social Security numbers, all represent 
significant steps in the right direction. Together, these Bills create 
front-end limits on the use of Social Security numbers and authorize 
criminal and civil sanctions and administrative penalties when 
violations occur. My staff would be happy to assist you in combining 
all of this legislation into a comprehensive Bill that would enable us 
to bring the full authority of the United States Government to bear 
against those who would buy, sell, or otherwise misuse SSN's. Until 
there are criminal statutes, civil sanctions, and administrative 
penalties available to combat the many forms of SSN misuse that we see 
on a daily basis, we are ill equipped to bring this epidemic under 
control.
    In a recent Op/Ed piece in the New York Times, columnist William 
Safire expressed surprise that Federal law does not currently prohibit 
the compelled disclosure of SSN's. We should be no less surprised.

                               CONCLUSION

    Because the SSN is instrumental in perpetrating identity theft 
crimes this office, by virtue of its congressional mandate, must be a 
key player in the fight to control these crimes. The task is made all 
the more difficult by the broad range of crimes that fall within the 
identity theft category, the new role of the Internet in perpetrating 
identity theft, and the difficulty inherent even in determining where 
the crime begins, what course it takes, and who is the primary victim. 
Nevertheless, we have put in place, and continue to implement, 
strategies aimed at both better understanding and combating the use of 
SSN's to commit identity fraud crimes. I thank the Subcommittee for 
inviting me here today, and for its concern of this very real threat to 
every American.

    Senator Kyl. Thank you very much, Mr. Huse. Just with 
respect to the last point you were making about the monitoring 
of the sale and purchase over the Internet of Social Security 
numbers, what are the current prohibitions on purchase, as well 
as sale, of someone else's Social Security number?
    Mr. Huse. There are no current prohibitions on the sale or 
purchase of someone's Social Security number at all, and that 
is the alarming issue here.
    Senator Kyl. And what are the prohibitions on the use of 
the Internet to therefore fraudulently sell or purchase 
somebody else's Social Security number?
    Mr. Huse. Again, Mr. Chairman, there are none.
    Senator Kyl. And, finally, a point that I think you just 
made, what is the current prohibition on forcing someone to 
tell you what their Social Security number is, other than IRS 
or Social Security?
    Mr. Huse. There are no prohibitions there either.
    Senator Kyl. Well, we could say case closed and get to work 
on the legislation, but I think that illustrates a very, very 
important point, and I appreciate your making that point very 
clearly.
    Ms. Bernstein, in your testimony, and also before, you 
mentioned the practice of skimming, in which identity thieves 
use sophisticated devices to intercept personal information on 
credit cards and ATM cards. What is being done to combat this 
practice, and what could we do to help combat that?
    Ms. Bernstein. To the extent that we are able to get 
information about those practices--that is, consumers who have 
been victimized--and put it in our data base, we are trying to 
compile it to get to the appropriate law enforcers in order to 
try to make that a part of the criminal conduct; that is, it 
would be part of identity theft. It would be one way in which 
the thief could obtain the necessary information to pursue the 
identity. There is no specific prohibition that I know of in 
the criminal laws that makes that a specific crime, and it 
perhaps could be addressed in legislation to make it more 
specific.
    Senator Kyl. Right. Could you describe the practice 
specifically for those who hadn't heard your previous 
testimony?
    Ms. Bernstein. Well, at least from our anecdotal evidence 
that we have gathered from the complaint data, they have 
techniques of observing when you use your credit card to enter 
the ATM or to use your other information that may be observable 
by a thief.
    For example, your telephone credit card has been used very 
widely to begin the process of reconstructing your identity by 
someone looking over your shoulder in an airport lounge, for 
example. It was widely used until people became aware of it. It 
still is an entry point for people because, from that number, 
often through other data bases you can begin to compile all the 
additional information that you need in order to be ``Senator 
Kyl'' and enter either your other credit or your bank account.
    Senator Kyl. Just as an aside, I serve on the Intelligence 
Committee and it is amazing to me how completely information 
about someone or something can be reconstructed starting with 
just one number, a telephone number, a Social Security number, 
a birth certificate, whatever it might be.
    There are so many different entities in the country that 
have access to different kinds of data, now that we have the 
Internet, that it can be done literally with a click, as you 
point out. That is why we are trying to identify the different 
kinds of entry points, the places where there could be a crime 
committed, especially where it is not yet a crime and we may 
need to consider making it such. So, that is another area, in 
addition to those that I talked to Mr. Huse about.
    Just one more thing, you have talked about novelty Social 
Security cards. Talk a little bit about that and just explain 
the phenomenon to the subcommittee, if you would.
    Mr. Huse. Well, Mr. Chairman, on the Internet there are 
many companies that sell false identification documents. They 
call them novelties. There is a disclaimer, if you purchase 
these, when they arrive at your home. They could be anything. 
There is nothing that can't be counterfeited today. With the 
State of the art in terms of desktop publishing and computer 
graphics, you can counterfeit anything. So they can replicate 
any kind of a document, certificate, diploma. It makes no 
difference.
    These arrive at your home, if you purchase them over these 
sites, with little pull-off stickers. The stickers, of course, 
say ``this is a novelty, not to be used for identification.'' 
That, of course, covers the entity that is selling these, but 
there is a plethora of these on the Net. I mean, you can become 
anything you want today.
    Senator Kyl. Well, obviously, we will have to look into how 
to try to define around those kinds of techniques of avoiding a 
criminal situation, and we will have to work with you very 
carefully on doing that, I am sure.
    Senator Feinstein.
    Senator Feinstein. Mr. Chairman, when I introduced the 
Social Security bill, and it was S. 2699, it went to Finance, 
where it has sat. Then I introduced the amendment to 2448 that 
Mr. Huse spoke about. That is an amendment to the Hatch Cyber 
Crime bill, and the Social Security bill was redrafted to 
involve Justice so that it could come to this committee.
    I am trying to think of a way to at least control the 
Social Security number as kind of a first step because that is 
so much in the Federal domain. I would be interested in any of 
your views in that regard. I think maybe just to stay with the 
amendment to the Hatch Cyber Crime bill, put that on the Hatch 
bill, if he will have us.
    Senator Kyl. He will have us, I am sure. Yes, we will work 
together to make this happen.
    Senator Feinstein. All right, good. That is great.
    Let me ask this question. With respect to the Internet, do 
either one of you have any views on the opt-in versus opt-out 
issue? Every time I discuss this, at least, with Silicon Valley 
people, it always comes down to opt-in versus opt-out.
    Ms. Bernstein. I could just offer a little bit of 
experience we have had, Senator, with what I call the Kids Act, 
COPA, the Children's Online Protection Act, which the Congress 
passed 18 months ago and we have implemented through 
rulemaking. It is now in effect. There is a requirement for 
verifiable consent for parents before an operator can obtain 
any information about an under-age consumer.
    Senator Feinstein. So that is an opt-in?
    Ms. Bernstein. It is opt-in, and we had a considerable 
discussion both before the Act was passed and in the rulemaking 
context, and I think have worked out methods by which the 
consent can be obtained from parents, and I think it has worked 
quite well to date. We are trying to encourage them, and there 
have been some efforts to really develop technology that would 
make it easier to go opt-in instead of opt-out, because I think 
in the end that is probably the only real impediment, is how do 
you get it done.
    So we have had a positive experience in that area and it 
has really worked quite well. So I don't believe that it would 
shut down the Internet if you have opt-in for certain kinds of 
use or misuse of very sensitive information. Medical/financial, 
of course, are generally considered by most Americans as very 
sensitive. In other words, you could make some discreet 
differences, considering what kind of information was being 
obtained or used.
    Mr. Huse. I endorse everything that Jodie said, but I would 
just like to take it from another tangent. We all know that the 
Social Security number has become our own personal identifier 
and, in fact, it is the national identifier. We all know it was 
never intended to be that, but de facto it has become that.
    Since it is synonymous with our name and our own 
reputations, I personally believe that the biggest weakness we 
have is this consent piece. If we build that in, all the rest 
of legitimate commerce can go on. But I think every one of us 
should have a personal right to decide whether and how our 
financial information that is under the tent of this number, 
and all the other uses of the SSN--we should have the right to 
yes or no. And I think that is the piece that we really need to 
work on. If we could fix that, the rest will follow. So I 
agree, opt-in is really the way to go.
    Senator Feinstein. So you are saying that the most 
important part is the Social Security number. Now, with respect 
to the Social Security number, at least in the legislation I 
have submitted, there is no opt-in/opt-out. You are prohibited 
from using it for commercial purposes----
    Mr. Huse. Unless there is opt-in.
    Senator Feinstein [continuing]. With certain exceptions, 
and the exceptions are very carefully crafted.
    Mr. Huse. Right, and I think that is the right way to go.
    Senator Feinstein. You think that is the right way to go?
    Mr. Huse. I do, because I think that that forces a positive 
act on the part of anybody who wants to engage in commerce to 
get your permission. I think that part of the victim violation 
here is that none of us have any control over this.
    Senator Feinstein. In the legislation as it is drafted, and 
I believe this is correct, permission isn't part of it with 
respect to the Social Security number.
    Mr. Huse. No.
    Senator Feinstein. It is, with consent. I beg your pardon.
    Mr. Huse. That was my understanding.
    Senator Feinstein. You were right. I was wrong.
    Mr. Huse. That is OK. You are there and I am here. 
[Laughter.]
    Senator Kyl. If they only knew how frequently we were 
wrong. [Laughter.]
    I think they do know.
    Senator Feinstein. I think they do, too.
    Ms. Bernstein. Your secret is safe with us, Senator.
    Senator Kyl. Us and C-SPAN, right?
    Ms. Bernstein. Yes.
    Senator Feinstein. In any event, with Senator Kyl's 
enormous help, we may just be able to move that legislation.
    Mr. Huse. I think it is really important, I do. It would be 
a tremendous step forward.
    Senator Kyl. Can I interrupt?
    Senator Feinstein. Yes, please.
    Senator Kyl. I have also been curious, though, about the 
need. If we are going to do this, which seems to me a very big 
step in the right direction, as you point out, don't we also 
need to make the Social Security card itself as counterfeit-
proof as possible, and what is your view with respect to that? 
Obviously, if you protect against one type of theft but it is 
very easy to steal it in another way, then you simply move the 
people from type A to type B crime.
    Mr. Huse. The Senate has been focused on the Social 
Security card itself for some time, and the Social Security 
Administration has done an extensive study. There are 
implications, of course, of improving the current card to a 
point where it is more counterfeit-proof, and then we stray 
into an area of actually, again, de facto adding more 
underpinning to the use of the Social Security number as a 
national identifier.
    That has policy implications that, you know, is a greater 
dialog than what we are talking about here.
    Senator Feinstein. Such as, for example?
    Mr. Huse. Well, if it becomes a national identifier, then 
we have a national identity card and----
    Senator Feinstein. But all he was saying is making it 
counterfeit-proof. All Senator Kyl was saying--we weren't 
getting into anything other than that. I mean, my Social 
Security number is on a little piece of cardboard, you know.
    Mr. Huse. Sure. But probably the folks who get a card today 
have--there have been improvements to that card over time. But 
as you add in more security features, then we need to add in a 
better business process underpinning that type of a card. There 
are tremendous costs involved to shift from the system we have 
now to one--would you add a photograph? I mean, there are all 
kinds of implications embedded in this that are a broader 
discussion.
    I think it is a dilemma because we are crossing a line 
until this time we have never had to deal with in this country. 
But some of it is being driven by technology and it certainly 
is worthy of debate, but I don't have the answer right here.
    Senator Feinstein. I guess what I understand him saying is 
when you go into making it counterfeit-proof, you go into what 
you use to make it counterfeit-proof, which ergo expands its 
application into a more formal identifier than it is now. I 
mean, the number is effectively our national identifier.
    Mr. Huse. Right. It is the number, not the card.
    Senator Feinstein. But we don't have a national 
identification card, per se.
    Mr. Huse. No, but by adding this strengthened number to a 
better card, we are adding in the ingredients for something I 
don't know that you want, or maybe you do. We are right on the 
precipice here of an entirely different issue, and that is the 
conundrum.
    Senator Kyl. But we are there. I am not taking a position 
one way or the other, because we had this debate with regard to 
the Immigration Act and the possibility of a prototype. We had 
a couple of demonstration projects for the purpose for which 
Social Security is intended, namely indicating that you have a 
number and therefore you are permitted to work in this country. 
And even that raised huge questions.
    But when we talk about opt-in and opt-out, what are we 
talking about? We are talking about opt-in and opt-out of 
allowing your number to be used for commercial purposes, OK? We 
are there, and so the fact that you make the card tamper-proof 
or fraud-proof doesn't force you to use it for commerce. It may 
make it easier to use for commerce, but that is again only if 
you agree that it be used in commerce, and you are already 
being asked whether you will agree to allow your number to be 
used in commerce. So we are there.
    But, again, that is a subject with much larger implications 
than we intended to cover in this hearing. I appreciate your 
point about that, and I just asked the question for information 
purposes and I think at some point maybe it would be worth 
exploring further.
    Mr. Huse. Adding any kind of security features to the card, 
of course, makes it a better--we are in a better place 
enforcing the law. I mean, I can give you a simple answer to 
that, too.
    Senator Kyl. It doesn't, of necessity, take you into 
commercial uses. It simply makes it a better product for 
commercial use. Is that correct?
    Mr. Huse. Yes, Mr. Chairman.
    Senator Kyl. Anything else for this panel?
    Senator Feinstein. No, Mr. Chairman.
    Senator Kyl. I know we need to move on to the next panel, 
so I want to thank both of you again. You have been 
tremendously helpful. We really appreciate your testimony.
    Mr. Huse. Thank you.
    Senator Kyl. I was just trying to determine here a proper 
order, and I think just for ease of doing it, if we would start 
with Ms. Michelle Suzanne Brown and just move down the table 
this way, Beth Givens next, Steve Emmert, and then Stuart 
Pratt, that will make an easy transition from one to the other. 
I want to thank each of you for being here today as well. We 
really appreciate your willingness to share your experiences 
with us and we look forward to your testimony.
    Michelle Suzanne Brown, why don't you begin?

PANEL CONSISTING OF MICHELLE BROWN, IDENTITY THEFT VICTIM, LOS 
      ANGELES, CA; BETH GIVENS, DIRECTOR, PRIVACY RIGHTS 
   CLEARINGHOUSE, SAN DIEGO, CA; STEVEN M. EMMERT, DIRECTOR, 
   GOVERNMENT AND INDUSTRY AFFAIRS, REED ELSEVIER, INC., AND 
LEXIS-NEXIS, AND PRESIDENT, INDIVIDUAL REFERENCE SERVICE GROUP, 
WASHINGTON, DC; AND STUART K. PRATT, VICE PRESIDENT, GOVERNMENT 
   RELATIONS, ASSOCIATED CREDIT BUREAUS, INC., WASHINGTON, DC

                  STATEMENT OF MICHELLE BROWN

    Ms. Brown. Thank you, Senator Kyl, Senator Feinstein. If I 
could ask one thing before I speak, I have one request. If we 
could redact my middle name from anything of record, is that a 
possibility?
    Senator Kyl. Absolutely.
    Ms. Brown. I don't know where that came from, but I 
appreciate that to be suppressed.
    I am pleased to be in your presence today, and I genuinely 
thank you for the opportunity to elevate the invasive crime 
known as identity theft. This is a topic, unfortunately, that I 
am intimately familiar with.
    My name is Michelle Brown. I am 29 years old and have been 
working in the international banking field for the last 7 
years. I am an ambitious and hard-working individual. I am 
certain that I much like any of your cousins, your nieces, your 
daughters, your sisters. I believe that I strongly represent 
any average, respectable citizen of the United States.
    However, there is one clear-cut issue that separates me 
from nearly the rest of the population. I have lived and 
breathed the nightmare of identity theft. I will tell you 
firsthand this is a devastation beyond any outsider's 
comprehension, a nearly unbearable burden that no one should 
ever have to suffer.
    Imagine establishing credit at age 17 and building a 
perfect credit profile over the next 11 years. Imagine working 
consistently since age 15 and helping to finance your education 
at an accredited university to advance your future success in 
life. Imagine never having been in trouble with the law.
    Now, imagine the violation you would internalize as you 
realize some vile individual you have never met nor wronged has 
taken everything you have built up from scratch to grossly use 
and abuse your good name and unblemished credit profile. That 
is precisely what happened to me.
    I discovered this new, blackened reality on January 12, 
1999, when a Bank of America representative called me inquiring 
about the first payment on a brand new truck which had been 
purchased just the previous month. I immediately placed fraud 
alerts on my credit reports, canceled all credit cards, and 
even placed a fraud alert on my driver's license number. From 
that day forward, I unearthed the trail of this menace's 
impersonation, and attempted to work with a current faulty 
system to protect myself from any further abuse. The system 
clearly failed me.
    To summarize, over a year-and-a-half, from January 1998 
through July 1999, one individual impersonated me to procure 
over $50,000 worth of goods and services. Not only did she 
damage my credit, but she escalated her crimes to a level that 
I never truly expected. She engaged in drug trafficking. This 
crime resulted in my erroneous arrest record, a warrant out for 
my arrest, and eventually a prison record, when she was booked 
under my name as an inmate in a Chicago Federal prison.
    The impersonation began with the perpetrator's theft of my 
rental application from my landlord's property management 
office in January 1998. Immediately, she set up cellular 
telephone service, followed by residential telephone and other 
utility services, and attempted to obtain time-share financing 
and department store credit cards. She was successful in 
purchasing a $32,000 truck, had nearly $5,000 worth of 
lyposuction performed to her body, and even rented properties 
in my name, including signing a year lease.
    Not only did this person defraud the Department of Motor 
Vehicles by obtaining a driver's license with my name and 
number in October 1998, but she even presented herself as me 
with this identification to the DEA and before a Federal judge 
when she was caught trafficking 3,000 pounds of marijuana in 
May 1999. She remained a fugitive for almost 6 months while 
still assuming my name, and was finally turned in by an 
acquaintance in July 1999.
    Months later, after she was already in prison, in September 
1999, I was stopped at LAX Customs after returning from a 
vacation in Mexico. While I explained my innocence to several 
agents in a stream of tears, and as I attempted to clearly 
distinguish this Michelle Brown from the other Michelle Brown 
with a criminal record, I was blatantly treated with strong 
suspicion. I was, as is typical for an identity fraud victim, 
guilty until proven innocent. I was finally let go after an 
hour, after the police were called to vouch for me.
    This situation reinforced my fear that I may be wrongly 
identified as the criminal, which could end with my arrest or, 
worse yet, being taken into custody and serving time in jail. 
After having seen so many inefficiencies and blatant errors in 
the system, I feel no assurance, nor can I receive any concrete 
evidence from authorities that this type of insane mix-up would 
never happen again.
    It was tormenting to know someone was, in essence, living 
the good life at my expense, and I was left with the taxing 
chore of proving my innocence. The restoration of my credit and 
my good name was a seemingly never-ending process. I was forced 
to make literally thousands of phone calls, fill out various 
forms, submit all sorts of documents, and have many documents 
notarized.
    Without a doubt, I was entirely consumed with the whole 
pain-
staking process. I gained nothing from putting over 500 hours 
into the chore of restoration. All in all, it was an exhausting 
waste of a good person's time and a massive drain on my life 
and energy. At one point, I even feared for my safety after I 
learned that the perpetrator had been linked with a convicted 
murderer. The whole identity fraud experience was by far the 
darkest, most challenging and terrifying chapter of my life.
    I faced many difficulties in clearing my name, and I still 
face the fear that I will forever be linked with her criminal 
record. I have encountered widespread inefficiency and general 
insensitivity at nearly every turn. I know that there are most 
definitely not enough dedicated resources and governmental 
authorities to assist victims and to simplify the burdens on 
the innocent's life.
    Clearly, changes need to be made. The Government not only 
needs to promote initiatives to shorten and simplify 
restoration of one's name and credit, but also to facilitate 
early detection and termination of an abused person's name, and 
most importantly to deter criminals from the allure of such an 
easy crime by enforcing swift and severe punishment.
    I think that Senator Feinstein's Identity Theft Prevention 
Act of 2000 is definitely a positive initiative and will put 
the legislation in the right direction to fight this crime. I 
support the two corresponding bills and recommend the 
enforcement of such initiatives.
    I came here today because I feel responsible to limit the 
abuse of other victims' names. I know how terribly tormenting 
it is to be a victim. I am living proof that identity theft is 
a very real crime with very real victims and true life-altering 
consequences. It is astounding that my life-long discipline to 
be a law-abiding citizen and to have the diligence to establish 
perfect credit was reversed so easily, so quickly, simply 
because I represent the perfect victim in another's eyes.
    This crime is clearly on the rise, and no one at this time 
is completely protected from becoming the next victim. I 
realize the scenario of becoming an identity fraud victim seems 
entirely far-fetched and implausible to many of you. I know the 
feeling; I was once in your shoes.
    I thank you for your time and for the opportunity to 
present my story and views today. I hope it is clear now that 
many changes need to be effected to the current system to 
combat this crime and protect victims. This fact is crystal 
clear in my mind.
    Thank you.
    Senator Kyl. Ms. Brown, thank you very, very much for your 
testimony. It is compelling and we appreciate it very much. It 
is precisely the kind of sacrifice that you have made to come 
here that will help us to prevent this happening to other 
people, and you are to be commended for it. Thank you.
    Ms. Brown. Thank you.
    [The prepared statement of Ms. Brown follows:]

                  Prepared Statement of Michelle Brown

    Mr. Chairman and Members of the Committee, it is my pleasure to 
submit testimony to your committee today and hope that my presence will 
shed some light on the invasive crime known as Identity Theft.
    My name is Michelle Brown, I am 29 years old, and currently reside 
in a respectable community in the surrounding area of Los Angeles, 
California. I have been gainfully employed in international banking for 
the last 7 years since my graduation from a University in California. I 
am much like most other hard-working, conscientious individuals, eager 
to get ahead in life and to make a respectable living; however, one 
thing clearly sets me apart from the rest of the crowd. I have endured 
the trying chores of realizing that I have become, and subsequently, 
have been painstakingly trying to break free from being, an identity 
fraud victim.
    It was a scenario I had only previously known through unbelievable 
stories painted in Hollywood: someone becomes you, erases your life, 
and through their destructive behaviors, complicates your own existence 
to an extreme level where you no longer know how to just live day after 
day. Your life becomes the life consumed by unraveling the unthinkable 
acts that your perpetrator has done in your perceived skin.
    I discovered on January 12, 1999, the existence of this shadow 
identity that I have been anxiously trying to expel from my life ever 
since. To be truthful, I don't think I will ever be able to close the 
books entirely on this menace's activities. I dearly wish I could, but 
what I know now translates to the fact that I will always be dealing 
with this alter reality I am plagued with.
    Over the course of a year and a half, my name, personal identifiers 
and records were grossly misused to obtain over $50,000 in goods and 
services, to rent properties, and to engage in federal criminal 
activities--namely drug trafficking. During the course of 1999, I spent 
countless sleepless nights and seemingly endless days, dedicating my 
valuable time, energy, peace of mind, and what should have been a 
normal life, trying to restore my credit and my life.
    I filed various statements and affidavits, had documents notarized, 
made thousands of phone calls to creditors, governmental authorities, 
etc., and continually set in motion the next level of protection for 
further follow up and monitoring. I alerted all the proper authorities, 
filed all the right papers, made the right phone calls, and diligently 
remained actively adamant to restore my perfect credit and my good 
name. I would estimate that the time lost toward clearing my credit, 
attempting to clear my criminal record, and to sever myself free from 
this menacing being, amounted to somewhere in excess of 500 hours of my 
time. At the time, the burden seemed like it cost me a lifetime.
    In the course of restoring my credit and my name, I realized that I 
was victimized by someone without conscience. This person was not a 
normal, socially responsible individual and would stop at nothing. In 
restoring my name, I discovered the following about her and her 
fraudulent activities:
    The perpetrator: Heddi Larae Ille, is currently 33 years old, and 
thankfully, is serving both state (2 years) and federal (73 months) 
prison time for illegal acts she performed while assuming my name. She 
is a Caucasian female, standing at about 5 foot 7 inches, weighing 
about 200 pounds, brown hair, and brown eyes. I am Caucasian, height 5 
foot 9 inches, weight 125 pounds, brown hair, hazel eyes. I believe we 
look nothing alike in physical appearance.
    January 1998: Just after I filed an application to rent a property, 
the perpetrator stole my rental application from my landlord's property 
management office. She apparently was at one time an acquaintance of my 
landlord's; to this day, I still have never met her and do not know her 
in any fashion.
    February 1998: Heddi set up a wireless telephone service at my then 
current address, and quickly switched the address within less than a 
week. After 3 weeks, Pacific Bell deemed this account as fraud and 
disconnected the service. Due to their fraud determination, this 
account was never alerted to me.
    March 1998: Heddi set up residential telephone service at a 
property in L.A., which remained on for about 4 months; $1,443 remained 
late and unpaid, therefore the service was finally shut off. This 
account eventually hit my credit report in the form of a credit inquiry 
through a credit bureau. [Of note, I simultaneously had telephone 
service in my name for years non-stop through the same provider (GTE); 
even though Heddi established the service through the same provider, 
with my name, Driver's License Number, and Social Security Number, I 
was never alerted of this new account, nor was this account cross-
referred to mine, even as it was in serious delinquency.]
    July 1998: Heddi attempted to obtain timeshare financing. The 
application was never activated, and when I spoke to the timeshare 
financing company, they did not have a ``Fraud'' division set up and 
could not tell me what happened with the application. I was later 
informed that she was required to serve 45 days in jail (on a separate 
fraud charge) shortly after the application was filed; likely this is 
the reason nothing had been pursued.
    July 1998: Heddi attempted to get a credit card through Target (a 
``home/everything'' type store); the application was denied.
    August and September 1998: Heddi served 45 days in jail.
    October 1998: Heddi got a duplicate drivers license at a Fullerton, 
CA Department of Motor Vehicles, in my name, my drivers' license 
number, but an alternate address, and with her picture. The DMV issued 
the duplicate, even though at the time, she weighed 40 pounds more than 
me and was two inches shorter, and completely different in physical 
appearance. The requirement of her fingerprint enabled the authorities 
to clearly distinguish our different identities and made things much 
easier for me to clear my credit, and to clearly establish the fact 
that I was the victim of identity fraud and impersonation.
    October 1998: Heddi rented a property in San Diego, CA, in my name, 
set up utilities, and shortly thereafter vacated.
    October 1998: Heddi signed a year lease at another property in San 
Diego, in my name.
    December 1998: Heddi filed applications for and received the 
following: a $32,000 2000 Quad Cab D2500 Dodge Ram Pick-Up (zero down 
lease), and $4,800 worth of liposuction in Long Beach, CA (she paid 
$1,400; the rest was financed through a line of credit established in 
my name).
    January 12, 1999: I received a message at home from a Bank of 
America representative inquiring about the new Dodge pick up. I 
returned the call to tell them they had the wrong person and I knew 
nothing of the truck. They explained they must have the wrong Michelle 
Brown, all the numbers listed on the application were not working, and 
a previous address was listed in my city; so they reached me via my 411 
listing. I asked them for the SSN to ensure it wasn't mine, they 
couldn't release it; I gave them mine and they told me that was in fact 
the one used on the application.
    January 12, 1999: I instantly put fraud alerts on all credit 
reporting agencies, filed a police report, cancelled all of my credit 
cards, put heightened security on all bank accounts, called the DMV to 
find out if a duplicate drivers license was issued (it had been) and 
subsequently put a ``pink flag'' fraud alert on my License number. 
Subsequently filed another local police report, called the Postmaster, 
Social Security Agency, U.S. Passport Agency, etc., and the nightmare 
continued with each and every passing day.
    Mid-January 1999: The Police Detective I was working with gets her 
pager number, pages her, and has a conversation with her. After she 
identifies herself as me when she returned the page, he tells her he 
knows that she really is Heddi Ille, and to turn herself in the next 
day. She agrees. Two subsequent times in the next week, she requests 
more time to turn herself in. Within the next week, the Detective 
issues a warrant out for her arrest and attaches required bond set at 
$750,000.
    May 1999: Heddi is arrested in Texas for smuggling 3,000 pounds of 
marijuana, she identifies herself as me to the DEA and to a federal 
magistrate. The arrest is recorded in my name, ``I'' am subsequently 
named in the criminal complaint, and listed as the DEA's informant. She 
was somehow set free even though my name and Drivers' License number 
was flagged with fraud since January 1999. I know nothing of her 
criminal activities at this time.
    June 1999: Through my landlord's property manager, I was told that 
they heard through one of Heddi's acquaintances that there was a 
warrant out for my arrest somewhere in Texas. Since I was going out of 
the country on vacation within 2 weeks, I asked the detective to write 
a letter explaining the circumstances and my innocence. I also had the 
police run my information in databases to tell what city/county the 
warrant was in, and tell me how to clear it prior to my vacation. No 
positive responses were found; I assumed it was a local county 
warrant--it was a federal felony warrant as I found out in July when 
she was arrested.
    July 1999: Heddi called an acquaintance of hers while she was in a 
suicidal state, and they turned her in. She identified herself as me 
even still as the police came to her hotel door. She was found with 
drugs in her possession, credit cards that had been melded down and re-
imprinted with my name, and her CDL in my name. She was brought in on 
13 criminal counts.
    September 1999: Returning from a trip to Cabo San Lucas, I was held 
at LAX's Customs and Immigration for an hour while I explained the 
circumstances of my erroneous link with her criminal record (after my 
passport was swiped in the computer). As I presented endless 
documentation of court records, police filings, etc., and explained my 
situation in a stream of tears, I knew then that I had become 
erroneously linked with Heddi's criminal record. The agents questioned 
my story and documentation, and treated me very suspiciously--like I 
was the criminal. After the Police Detective was called and vouched for 
me, I was allowed to leave. I feared being arrested or being taken into 
custody. I found out later that, even though Heddi had already been in 
police custody at a jail since July, the DEA posted a lookout for 
``me'' in the system. They neglected to let me know that I might want 
to be prepared for this type of confusion at any time.
    September 1999: Heddi is convicted of 3 felony counts (perjury, 
grand theft, and possession of stolen property) at the state level at 2 
years each, which she is serving simultaneously. Note that the specific 
charge for identity theft/impersonation was not a charge that she was 
actually convicted of.
    October/November 1999: Heddi is transferred to the Chicago Federal 
Prison and they book her as an inmate in my name. She even addressed 
outgoing letters from the Federal Prison using my name in the return 
address. Needless to say, I was furious. When I called the DA, they 
told me they would have this corrected. I was told subsequently that it 
was corrected; however, they could never provide me proof of this in 
writing as I requested.
    June 2000: Heddi is sentenced to 73 months in federal prison for 
possession with intent to distribute 3,000 pounds of marijuana, with an 
enhanced sentence for lying to a federal magistrate. She received a 
reduced sentence from the pre-determined 110 months because she 
provided assistance to the government. [I believe she was tied to a 
major drug smuggling ring. Even though my name was used, I was never 
privy to details of her crime; however, I was informed that there were 
several defendants in this case.]
    Through the course of uncovering her trail and waiting for her to 
be caught, I honestly believed that the victimization would never end, 
that I would never become whole again as the true ``Michelle Brown.'' 
My world had become a living nightmare. I personally was affected 
extremely: I was significantly distracted at a job that I had just 
started three weeks prior to the day of discovery, I suffered from a 
nearly non-existent appetite, very little sleep, and was consumed with 
the ferocious chore of restoring my name and attempting to quell any 
future abuse. I lost identification with the person I really was inside 
and shut myself out of social functions because of the negativity this 
caused on my life. I know that a very meaningful 3 year relationship 
with my then boyfriend suffered dearly because of the affect this 
traumatic chapter of my life had on me--the relationship ended about 4 
months later.
    No words will ever be strong enough to completely convince others 
what this period was like, filled with terror, aggravation, unceasing 
anger and frustration as I woke every day (since my discovery of the 
identity fraud in January 1999) with emotionally charged, livid angst. 
I unceasingly was forced to view life through a clouded reality, one 
seriously altered by a horrendous individual who committed a series of 
unforgivable acts in my name. The existence of Heddi has robbed me of 
the normal life I have strived for and entirely deserve. My life should 
be one in which I, and I only, should be the only one being held 
responsible and accountable for my personal credit history and what 
should be, a lack of a criminal history.
    For me, the most personally frightening moment was dealing with 
LAX's Customs and fearing an erroneous arrest. Because of this 
situation, I purposely have NOT gone out of the country for fear of 
some mishap, confusion, language barrier, that may land me in prison 
for some unknown period of time. I do not deserve to be in this 
predicament and do not deserve to feel imprisoned by the U.S. Borders. 
I still fear what might happen as I cross the U.S. Border and I cannot 
get assurance from any governmental agency that this situation will 
never happen again.
    Identity fraud (especially those cases escalated to a criminal 
level) leaves a very dark and filthy cloud around the victim. Although 
I am the free Michelle Brown, living what may on the surface seem to be 
a normal life with freedom on the streets, I have never deserved less 
than that: a normal life, one free of the ill effects of a heinous 
individual who deliberately and unabashedly used and abused my world 
that I had always been so careful to create and maintain. I am a law-
abiding, good natured and caring individual, contributing through 
legitimate business and upstanding citizenship, who never deserved to 
be haunted with this naggingly irritating air Heddi has shadowed me 
with.
    Clearly many preventive measures and protective procedures need to 
be enforced to prevent such a horrendous crime from being so easy and 
attractive for a perpetrator to facilitate. Below I've attached a list 
of items highlighting some of the weaknesses I see with the current 
system.
    I thank you for your time and consideration and hope that my case 
can provide you with the awareness that this is truly a real crime, 
with real victims, and dire life-altering consequences attached.
                                 ______
                                 

                              Attachment 1

    During the course of the restoration of my credit and my personal 
records, including criminal associations, I can identify the following 
faults in the current system:
    There should be a better system to clearly verify the innocent's 
residency for the past.--Creditors and the credit reporting agencies 
require various statements to prove residency over the course of time 
(when services were actually established). The types of documents they 
require as proof(s) of residency were rarely consistent with each 
other. Additionally, most people do not keep old statements. How is one 
to prepare for the occasion that you would have to prove residency for 
any time period? I happen to keep all of my old credit card statements, 
some utility bills, and most phone bills which allowed me to provide 
sufficient documentation. I doubt the common citizen retains the same 
level of credit card statements, utility bills, etc.
    There should be a standardized form that would suffice to send to 
all parties that were victims of extending credit, extending 
identification/documentation of identity (Department of Motor Vehicles 
for licenses, passport agencies), and reporting on these items (credit 
reporting agencies).--To clear fraudulent items, I was asked to fill 
out various forms from one creditor to the next, which is very time 
consuming.
    Credit restoration (at the credit reporting agencies) is rarely 
timely, efficient, or effective.--Even though the fraudulent accounts 
were erased from my credit reports, some items mysteriously resurfaced 
months later. Also, several fraudulent inquiries still remain on my 
Trans Union report despite repetitive efforts with both the creditors 
and the credit reporting agency to clear these items.
    Credit Monitoring Services should be provided free to victims of 
identity fraud for several years.--I still need to monitor my credit 
even though the perpetrator is in prison (she could use it again or 
could have sold it off, etc). I continually call to ensure that neither 
new inquiries nor accounts have been opened fraudulently. I also need 
to ensure that my fraud statement remains attached to each credit 
report. Many victims are re-victimized after the fraud alert expires on 
their credit reports. This will always be a necessity despite the 
appearance of a fraud alert tagged to each of the three credit 
reporting agencies' reports, especially in the event a merchant does 
not comply with the fraud instructions to contact the victim 
telephonically.
    Identity fraud victims should always be able to speak to a live 
person at the credit reporting agencies.--As the attachment of a fraud 
alert if the first level of prevention once someone has learned of 
their victimization, it is a necessity to attach this as soon as 
possible. This was the first means of comfort to me that I could take 
this measure and discuss my situation with someone more familiar with 
the situation. However, in subsequent calls to the credit reporting 
agencies, I had discovered that often the call went straight to an 
automated call receipt system with inadequate options. It would have 
been quite unnerving if my first call to alert them of fraud had been 
funneled to an answering machine where you are asked to leave your 
name, number, social security number, etc., rather than speaking to a 
live individual who can better instruct you and understand your crisis.
    Authorities are not always sensitive to this type of crime.--When I 
spoke to an LAPD, I was told blatantly not to file a report in their 
office because they didn't want such an enormous case on their hands. 
The DMV was also not sensitive to my case and was in fact accusatory: 
they suggested that I was lying about someone getting a duplicate CDL 
in my name, despite the fact that I had just spoken with another 
employee who verified this for me. I was guilty until proven innocent--
like most identity fraud victims are treated time and time again.
    In each Police Department, there should be an established Task 
Force to which calls of Identity Fraud nature should be referred, where 
expertise in this arena and sensitivity to the victim would be highly 
appreciated.--On filing my first police report, I was told to file a 
report in the county where the crime was committed. The first thing I 
was alerted to was the truck purchase, which took place somewhere over 
100 miles away from me in San Diego. Additionally, the officer I 
initially spoke to in San Diego mistakenly thought that I should 
collect all of the necessary paperwork and bring it to the San Diego 
Police Department. Not only would this have been a major inconvenience, 
but legally, I did not even have access to this ``proof:'' the 
application for the $32,000 loan, copies of the perpetrators' drivers 
license, etc. My feeling is that Law Enforcement Officers are not 
trained to handle these types of calls and do not know the procedures.
    The fraud alert posted on my driver's license in January 1999 
obviously was not effective: either the various systems should be able 
to share this information across the state borders, or the DMV should 
be more careful about what they are telling victims.--What I understood 
created a false sense of security for me. Had this fraud alert worked, 
I would not be linked with: the perpetrator's arrest record, the 
criminal complaint, the warrant out for her arrest, nor would I have 
been detained at LAX's Customs and Immigration.
    There are neither enough resources nor expertise dedicated to this 
crime in general, and government information sharing across state lines 
is poor.--I was highly frustrated by the length of time it took to 
finally catch Heddi; when she was finally taken into custody, it was 
not because of the diligence of the police, it was because she was 
turned in. Also, it amazes me that she was actually arrested in Texas 
in my name, taken into custody, and released even though California 
records were flagged to show that someone was using my name and to be 
on the look out. Clearly the current system and procedures failed 
horribly and are not adequate at this time.
    There need to be clear cut procedures and evidence provided to the 
victim to break a victim free of an impersonator's crimes.--Authorities 
cannot provide assurance that I am now cleared of hassles with the law, 
Customs/Immigration, etc. In fact, I am told that I will always be 
linked with Heddi's criminal record because I'm her A.K.A, meaning that 
I will likely be questioned any time that my name and identifiers are 
run in government systems. This is an enormous, haunting burden on a 
victim, who has clearly already suffered enough. I believe the 
government does not have solid procedures on how to de-link a victim 
from its perpetrator, and they are uncertain of the flow of 
information. I feel like I'm testing the system as if I'm walking 
through a minefield.
    Finally, there should be severe consequences to the perpetrator of 
such crime.--Although my perpetrator is currently serving prison time, 
she was never convicted of the identity fraud felony count. Her other 
crimes carried more weight over the one most personally offensive and 
life altering to me. I would recommend to impose a $5,000 fine to 
anyone who steals another's identity, and require that this be paid to 
the victim within 2 years of conviction.
    Additional recommendations, while not directly applicable to my 
case, would help prevent the extent of fraudulent activities:
    Social security numbers should be treated as confidential 
information, and therefore should not be required to be part of 
passwords, medical identification numbers (this is usually clearly 
stated of medical cards which should be carried at all times by the 
insured), etc. Additionally, there are NO situations in which SSN's 
should be sold.
    Credit issuers: all duplicate card requests should be verified by a 
mailer to the previous credit card address, or verified via telephone.
    Credit issuers: change of address requests should be followed up 
with a level of verification. Possibly there could be a better 
communication system between the Postmaster, and credit reporting 
agencies and creditors, to verify that authentic address changes have 
been made.
    Credit issuers: many unauthorized charges to a credit card holder 
are facilitated by shipping goods to an alternate address.--Any items 
billed to a credit card and shipped to another address should be 
subject to the same verification/authentication requirements as if the 
creditor were discussing private account information with the card 
holder. Further, as the shipment is requested, the credit card holder 
should be informed in writing of the shipment, including the address to 
which the item was billed.
    Credit reports should be offered free to individuals at least once 
a year, at their request.
    Unusual inquiry/account opening behavior should be flagged at the 
credit reporting agencies and further investigated.--The bureaus should 
take more responsibility for unusual activity as they are the first 
ones to be alerted of consolidated fraud on one individual's record.
    Fraud alerts should be CLEARLY POSTED on the first page of victims' 
credit reports. Further there should be fines imposed to merchants who 
do not properly act on these statements and fail to verify the 
authenticity of an application.

    Senator Kyl. Beth Givens.

                    STATEMENT OF BETH GIVENS

    Ms. Givens. Chairman Kyl, Senator Feinstein, thank you for 
the opportunity to testify today. I am Beth Givens, director of 
the Privacy Rights Clearinghouse, a non-profit consumer group 
in San Diego. We have been assisting victims since 1993 and we 
have witnessed the ravages of this crime on the victims and 
their families, and I commend you today for focusing on victims 
and on prevention.
    In May, the Privacy Rights Clearinghouse and CALPIRG, 
another non-profit, released a survey on identity theft victims 
who had contacted us for help in the past, and here is what we 
learned.
    On average, it took them 2 years to clean up their credit 
report and to regain their financial health. Many were still 
dealing with it after 4 years. Victims found that they spent an 
average of 175 hours to resolve the problem. That is the 
equivalent of 4 working weeks, and many were spending over 500 
hours.
    When victims are asked what would have prevented their 
identities from being stolen, most, including those we 
surveyed, said take the Social Security number out of 
circulation so it can't be obtained by criminals. It certainly 
should not be used as an ID for insurance companies, by 
universities and others, and it certainly should be not for 
sale on the Net. I am pleased that 2328 and 2699 have been 
introduced because I think they address the prohibition of the 
sale of the Social Security number.
    Victims also State that the credit issuers need to be more 
effective in weeding out fraudulent applications, especially in 
instant credit situations. Half of the victims in our survey 
told us that the fraud recurred after they put a fraud alert on 
their credit report, and I am also pleased that 2328 addresses 
that.
    Victims have also stressed that early detection of fraud 
would have greatly shortened the time needed to regain their 
financial health. Our survey found that the average time it 
took them before they even learned they were a victim was 14 
months after the fraud had begun.
    What about victim assistance? It is now much improved since 
the Federal Trade Commission has opened its identity theft 
clearinghouse, thanks to the bill that was passed last year, 
your bill, Senator Kyl. But the credit bureaus and credit 
issuers must improve their victim assistance tremendously. This 
includes providing live staff members rather than voice mail 
and long waits, and also the industry must develop fool-proof 
methods to prevent fraud from recurring once a fraud alert has 
been established. The Associated Credit Bureaus' efforts, I 
think, are moving the industry in the right direction.
    In closing, I want to bring to your attention to what I 
call the worst case scenario of identity theft, and that is 
when the imposter commits crimes using the victim's identity, 
like we heard from Michelle, giving that person a criminal 
record. These records are extraordinarily difficult to clear 
up. Victims may be unable to find work. They live with the 
constant fear of being arrested at any moment. Many of them 
have been jailed.
    They must carry with them a document from either law 
enforcement or the courts, and they must carry it all times, 
that is if they are fortunate to even get such a document. This 
would be a letter of clearance. They face a lifetime of being 
burdened with someone else's criminal record.
    Now, with that, I close. I do wish to present the committee 
with our identity theft survey, also with a documentary about 
some California identity theft victims that was made by a 
victim herself.
    [The documentary will be retained in committee files.]
    I thank you again for the opportunity to testify on behalf 
of consumers and on behalf of the identity theft victims.
    Senator Kyl. Thank you very much for your important work, 
and we will be very pleased to accept that material for the 
record of the hearing and try to promote its viewing by others 
as well.
    [The prepared statement and information referred to of Ms. 
Givens follow:]

                   Prepared Statement of Beth Givens

    The Privacy Rights Clearinghouse is a nonprofit consumer 
information and advocacy program based in San Diego, California. The 
PRC was established in 1992. We have been assisting victims of identity 
theft since 1993, when we first started learning about this crime. Our 
guides for identity theft victims can be found on our web site at 
www.privacyrights.org. I estimate that I have assisted at least 4,000 
victims of this crime, and that others on our staff have assisted many 
thousands more over the years.
    I appreciate the ability to provide written and oral testimony on 
the skyrocketing crime of identity theft, its impact on victims, and 
possible solutions. And I commend you and the Subcommittee members for 
addressing this issue. My written testimony is in four parts.

    <bullet> Topic number one is the crime itself--what is identity 
theft, how much of it is going on, and why is it happening in epidemic 
proportions.
    <bullet> Second, I will discuss the many ways in which identity 
thieves obtain the bits and pieces of information they need to 
impersonate others--mainly Social Security numbers (SSN) and credit 
card account numbers.
    <bullet> Third, I will explain some of the impacts on victims.
    <bullet> And fourth, I will recommend legislative and industry 
measures to prevent identity theft and to expedite the ability of 
victims to regain their financial health.

    First, what is identity theft? There are numerous variations of 
this crime. Essentially, it occurs when someone uses bits and pieces of 
information about an individual--usually the Social Security number--to 
represent him or herself as that person for fraudulent purposes. 
Examples are obtaining credit cards and loans in someone else's name 
and then not paying the bills, opening utility accounts, renting an 
apartment, getting a cellular phone, purchasing a car or a home, and so 
on. Another type of identity theft--what I call the worst case 
scenario--is when the perpetrator commits crimes in the victim's name 
and gives that person a criminal record.
    Victims are not liable for the bills accumulated up by the 
imposters, thanks to federal law. But they do have the anxiety and 
frustration of spending months, even years, regaining their financial 
health and restoring their good credit history.
    How many victims of this crime are there? We don't have accurate 
statistics. But I estimate that there are 500,000 to 700,000 victims 
this year. A 1998 report by the U.S. General Accounting Office tracked 
identity theft statistics from 1992 to 1997, based on figures provided 
by the Trans Union credit reporting agency (CRA). A graph on page 40 
shows a dramatic 16-fold increase in the volume of calls from 
individuals to Trans Union's Fraud Department during the six-year 
period from 1992 to 1997. Trans Union now receives well over 2,000 
calls a day from victims of identity theft. [U.S. General Accounting 
Office, www.gao.gov, ``Identity Fraud,'' Report No. GGD-98-100BR, 1998, 
p. 40]
    Why are these figures significant? When individuals learn they are 
a victim of this crime, the first step they should take is to contact 
the three bureaus and place a fraud alert on their file. The CRA's are 
Trans Union, Equifax, and Experian (formerly TRW). Therefore, the 
number of calls received by the CRA's fraud departments is a good 
indicator of the volume of this crime.
    Why is this crime so rampant today? It is very easy for the 
criminals to obtain the information needed--in particular, Social 
Security numbers. Non-Social Security Administration uses of the SSN 
have not been prohibited by law, at least not to date. As a result, 
SSN's are used as identification and account numbers by many entities--
insurance companies, universities, cable television companies, military 
identification, banks, securities brokerage companies, and the like. In 
about a dozen states, the SSN is used as the driver's license number.
    Identity thieves can obtain SSN's by stealing mail where those 
numbers are included. They sift through the trash outside of businesses 
and residences in hopes of finding unshredded documents containing 
SSN's and other data. Dishonest employees can obtain SSN's in the 
workplace by obtaining access to personnel files or accessing credit 
reporting data bases (commonly available in auto dealerships, realtors' 
offices, banks and other businesses that approve loans).
    Another reason identity theft is rampant is because of credit 
industry practices. Credit grantors make it all too easy to obtain 
credit. Many credit issuers do not adequately check the identities of 
applicants before granting credit. Instant credit opportunities are 
especially popular with identity thieves for this reason. Credit 
grantors are all too eager, in their competitive zeal, to obtain new 
customers. It is not uncommon for households to receive several pre-
approved offers of credit per week. In fact, a Los Angeles Times news 
story reported that credit issuers mailed 3.4 billion pre-approved 
offers of credit to consumers in 1998. (``Charges are flying over 
credit card pitches,'' by Edmund Sanders, Los Angeles Times, June 15, 
1999, p. D-1. www.latimes.com).
    Another reason identity theft is skyrocketing is that it does not 
yet get the attention of law enforcement that more violent crimes 
receive--like breaking and entering, mugging, robbery by gunpoint, and 
bank thefts. Many violent criminals and 
organized crime rings are moving to identity theft because they know 
that law enforcement resources are not yet sufficient to investigate 
the majority of such crimes. Identity thieves are rarely apprehended 
and sentenced. If they are, penalties are minimal and rarely include 
jail time. Community service and parole are the usual sentences.
    My second topic is the methods used by identity thieves to obtain 
identifying information about their victims. Typically, they obtain the 
Social Security number and name. That's often all that is needed to 
apply for credit (called ``application fraud''). They also might obtain 
credit card numbers and hijack existing accounts (called ``account 
takeover). Other pieces of information useful to identity thieves are 
dates of birth, mother's maiden name, and driver's license numbers.

    <bullet> One such method is the old fashioned way--by stealing a 
wallet or purse. The thief either uses the information obtained or 
provides the contents to a crime ring. Even if the individual does not 
carry the Social Security card in the wallet (and we recommend that 
they do not), he or she might have an insurance card or student ID with 
that number on it.
    <bullet> Another strategy is to fish credit card slips and loan or 
credit applications from the trash. Unfortunately many businesses, 
banks, mortgage companies, and restaurants do not shred these 
documents.
    <bullet> We are seeing an increase in the ``inside job'' in the 
workplace--dishonest employees with access to computer terminals 
connected to one of the credit reporting agencies. They might look for 
names similar to theirs, or just someone with good credit. Obviously 
what goes hand in hand with this type of access is the negligence of 
the company which is permitting such uses in an unmonitored 
environment.
    ``Insiders'' have also used their access to personnel records to 
obtain Social Security numbers of identity theft victims. In a recent 
case in San Diego, a dishonest employee had unfettered access to a 
storage room where past payroll information was filed. She obtained 
SSN's of over 100 current and former employees and used them to obtain 
credit in their names.
    We learned of a case where a member of a Nigerian crime ring was 
employed temporarily at a very large corporation. He downloaded the 
employee list containing SSN's and then one by one the employees' 
identities were used for fraudulent purchases. The employees didn't 
know about it until they started sharing stories and learned that many 
of them had been hit. It wasn't until much later that the human 
resources department confessed that they had known about the theft, but 
they didn't want to tell the employees and cause them to panic.
    <bullet> Sadly, some identity theft is perpetrated by relatives or 
friends, roommates, household workers like health care givers, and 
spouses going through a divorce who have a grudge. These individuals 
obtain Social Security numbers, driver's license numbers, and credit 
card numbers by having access to their personal effects.
    <bullet> Mail theft is another way of obtaining identifying 
information, as mentioned above. We urge people not to leave their paid 
bills out at the mailbox for the carrier to pick up. It's better to 
drop them off at the Post Office. There's also insider mail theft, 
where credit card mall is stolen from the mail processing areas by 
postal employees.
    <bullet> Then there's the change of address routine. The thief 
fills out a change of address card so the victim's mail is diverted to 
the thief's drop box. The thief obtains bank statements and credit card 
bills, monthly investments reports, and pre-
approved offers of credit containing the information necessary to 
impersonate the victim. The Postal Service has recently initiated 
changes to make this more difficult.
    <bullet> Application fraud is another method. The imposter fills 
out a credit application--perhaps a pre-approved offer of credit 
retrieved from the trash--with the victim's name and identifying 
information and has the credit card mailed to another address. The 
major credit card issuers say they are now more wary of changes of 
address, but their efforts are not foolproof.
    <bullet> The Internet is becoming a more popular resource for 
identity thieves. Yes, there are web sites that sell individuals' 
Social Security numbers. Visit www.infoseekers.com and 
www.fastbreakbail.com for example. Social Security numbers can be 
purchased for as little as $20. They are found in records called 
``credit headers'' that are sold by credit reporting agencies to 
information brokers. Credit headers include name and name variations, 
current and former addresses, telephone numbers (including unlisted 
numbers), year and month of birth, and SSN. At this time, there are no 
restrictions on the sale of credit headers to information brokers. 
Consumers have no way to ``opt-out'' of the sale of their credit header 
data. The information broker industry adopted a voluntary privacy 
policy in 1997, but it has been ineffective in restricting the sale of 
sensitive personal information to the general public. (See the 
Individual Reference Services Group guidelines at www.irsg.org.)
    <bullet> There are many more schemes. Most victims with whom we 
have spoken haven't a clue as to how their identifying information was 
obtained by the imposter.

    My third topic is what happens to the victims of these crimes? Even 
though each identity fraud case is different, what happens to the 
victims is, sadly, all too similar.

    <bullet> They get little to no help from the authorities who issued 
the identifying information to them in the first place.
    <bullet> Law enforcement doesn't investigate many such crimes. 
There's just too much identity fraud occurring for them to handle all 
such cases, although the financial fraud departments of many police 
departments are being expanded.
    Many police and sheriff's departments refuse to issue a police 
report to the victims. They claim that the banks and credit card 
companies are the real victims because they suffer the financial 
losses. Many victims find they need the police report to prove their 
innocence to the credit card companies and the check guarantee 
services.
    <bullet> Many victims report they do not get effective help from 
the credit grantors, banks, and the CRA's. They describe difficulty in 
reaching the credit reporting agencies, and tell how they are treated 
disbelievingly by some creditors. Victims also report that flagging 
their credit report for fraud doesn't always stop the imposter from 
obtaining more credit.
    Victims must also deal with abusive collection agencies. They are 
threatened with law suits, garnished wages, and having their homes 
taken away from them.
    <bullet> Another common experience of victims is that they must 
spend a great deal of time cleaning up the mess. I've talked to many 
who are taking the day or the week off work so they can make the 
necessary phone calls, write the letters, and get affidavits notarized. 
This costs them money as well. Many victims are saddled with this 
situation for years.
    In a recent survey we conducted with CALPIRG, we found the average 
amount of time spent by victims to regain their financial health was 
175 hours. And those cases had dragged on for an average of two years, 
with many cases taking more than four years to be resolved. (``Nowhere 
to Turn: Victims Speak Out on Identity Theft.'' May 2000. 
www.privacyrights.org/ar/idtheft2000.htm).
    <bullet> Victims are often scarred emotionally. They feel violated 
and helpless--and very angry. I've heard people use the word ``rape'' 
to describe how they feel. I've talked to many who are crying or close 
to it because they cannot stop what is happening to them, and no one 
else will either. I've talked with elderly people who are terrified of 
losing their life savings and their homes.
    It's little wonder that victims feel violated, helpless and angry. 
They are unable to rent an apartment, get a job, qualify for a 
mortgage, buy a car, all because someone else's bad credit history is 
recorded on their credit report. Essentially the entire burden of this 
crime is placed on the shoulders of the victims.
    <bullet> The worst-case scenario is when the thief commits crimes 
in the victim's name. We learned of a case where the imposter was a 
major drug dealer, using the identity of a high-tech company president. 
This man travels out of the country often and has to carry a letter 
from law enforcement which explains he is not the drug dealer, because 
he gets pulled into secondary inspection every time he comes back to 
the U.S. Recently law enforcement from another state, who had not read 
the entry on the FBI's NCIC crime data base completely, entered his 
bedroom in the early morning hours and tried to arrest him at gunpoint. 
He was able to convince them they were seeking the wrong person.
    Another case that came to our hotline was an Hispanic man, a U.S. 
citizen, who was visiting relatives in Tijuana, Mexico, across the 
border from San Diego. He was taken into secondary inspection by U.S. 
Customs on his return trip to San Diego. A search of his SSN showed he 
was wanted for a crime in the Bay Area. He was transported from San 
Diego to San Francisco and put in jail. It took him 10 days before one 
of the officers believed him, took his fingerprints as he had requested 
all along, and realized they had the wrong person.
    <bullet> Another worst-case scenario is when the imposter is 
working under the victim's name and SSN, and the earnings show on the 
victim's Social Security Administration record. We learned of one such 
a case that had been going on for 10 years. The imposter obtained the 
victim's birth certificate, a public record in California. And even 
when the victim acquired a new SSN, the impersonator was able to obtain 
it shortly thereafter. Victims of employment fraud often must deal with 
the Internal Revenue Service because IRS records show they are under-
reporting their wages.
    <bullet> Finally, in order for victims to extricate themselves from 
the identity theft mess they find themselves in, they have to be fairly 
savvy consumers. They must be assertive with the credit card, banking 
and credit reporting industries. They must be assertive with all kinds 
of other officials as well. I have talked with many consumers who are 
not equipped to deal with the challenges that this crime brings to 
them--individuals whose first language is not English, or those whose 
English language skills are such that they cannot communicate at the 
level of complexity that this problem requires. Those who are semi-
literate or illiterate cannot write the necessary letters. 
Unfortunately, there are not enough consumer assistance offices to help 
these people.

    My fourth and final topic is legislative and industry solutions to 
the crime of identity theft.
    The awareness of identity theft among consumers has skyrocketed in 
the past year--primarily because of media coverage. I think consumers 
are becoming much more wary of disclosing personal information and 
having it given out without their consent, especially on the Internet. 
These outcries by members of the public have resulted in some 
legislative attention brought to the issue, both on the federal level 
and in the states.
    In 1998 Congress passed and the President signed the Identity Theft 
and Assumption Deterrence Act (18 U.S.C. 1028). It makes identity theft 
a federal felony when someone knowingly uses the identification of 
another person with the intention to commit any unlawful activity under 
federal and state law. Violations of this Act are investigated by 
federal agencies like the U.S. Secret Service, the FBI, and the U.S. 
Postal Inspection Service. Such crimes are prosecuted by the U.S. 
Department of Justice.
    This new law allows for restitution for victims. It established an 
identity theft clearinghouse within the Federal Trade Commission. The 
FTC now offers a toll-free number for consumers to call, 877-IDTHEFT, 
as well as a web site, www.consumer.gov/idtheft.
    In recent years nearly 40 states have criminalized identity theft. 
Most of them have made it a felony. A list of those states can be found 
on the FTC's web site at www.consumer.gov/idtheft/statelaw.htm.
    On the one hand, I'm pleased that this crime has been criminalized 
by these new laws. But I believe that in order to make a dent in 
identity theft, the practices of the credit industry must change 
dramatically. Until laws create incentives for the credit industry to 
change how they do business, the crime of identity theft will continue 
to climb at epidemic proportions.
    I am encouraged by the introduction of Senate Bill 2328 by Senators 
Feinstein, Kyl, and Grassley, titled the ``Identity Theft Prevention 
Act of 2000.'' It places the emphasis on prevention where it rightfully 
belongs. The points that follow include discussion of the key 
provisions of S. 2328 (http://thomas.loc.gov).
    Here are some suggestions for making credit industry practices more 
fraud-proof:

    <bullet> A change of address is often an indicator of fraud. Simple 
steps by both credit grantors and reporting agencies in verifying 
address changes would greatly reduce fraud incidents. S. 2328 requires 
that if the card issuer receives a change of address notification, it 
must send a confirmation notice to both the new and former addresses. 
Further, if a card issuer receives a request for an additional credit 
card within 30 days of receiving a change of address, it must also 
notify the cardholder at the old and new addresses. Credit reporting 
agencies must notify credit issuers when it becomes aware that a credit 
application bears an address for the consumer that is different from 
the address they have on file.
    <bullet> A penalty should be assessed whenever a credit grantor 
extends credit to an imposter after the victim has placed a fraud alert 
on the credit file (a provision of S. 2328).
    <bullet> All consumers should be able to receive one free copy of 
their credit report annually (a provision of S. 2328). With more 
consumers checking their credit reports frequently, identity theft will 
be detected earlier and the impact will be minimized. Six states have 
passed such laws: Colorado, Georgia, Massachusetts, Maryland, New 
Jersey, and Vermont.
    <bullet> Consumers should be able to notify the credit bureaus to 
put a ``freeze'' on their credit report--to prevent their credit report 
from being furnished without specifically authorizing the release. A 
Vermont law requires that users of credit reports obtain permission 
from the consumer prior to obtaining the credit report (Title 9 sec. 
2480e at www.state.vt.us. Click on ``Statutes Online''). In California, 
state Senator Debra Bowen's SB 1767 would adopt the Vermont ``opt-in'' 
model.
    <bullet> Another important piece of legislation that needs to be 
enacted is a provision that takes the Social Security number out of 
circulation. A separate bill introduced by Senator Dianne Feinstein 
would prohibit the commercial sale of SSN's (Social Security Privacy 
Act of 2000). This measure would also limit uses of the SSN by private 
sector entities. Government agencies could not display the SSN on 
mailing labels and documents available to the public.
    In California, a bill introduced by state Senator Debra Bowen 
during the 2000 session would prohibit the use of the SSN as an account 
or member number by such entities as insurance companies and 
universities. (SB 1767 can be found at www.leginfo.ca.gov. Click on 
``Bill Information.'')
    <bullet> Credit grantors should be required to verify at least four 
pieces of information--name, address, date of birth, SSN, driver's 
license number, and place of employment--with information on the credit 
report. This is especially important in instant credit situations. If 
the consumer is applying in person, the credit grantor must inspect a 
photo ID.
    <bullet> As discussed earlier in this testimony, we consider the 
worst-case scenario of identity theft to be when the victim is burdened 
with a wrongful criminal record because of the activities of the 
imposter. This usually occurs when the imposter is arrested and 
released, perhaps for a traffic violation or shoplifting, and then does 
not appear in court. This results in a warrant for the arrest of the 
identity theft victim.
    Victims of criminal record identity theft can find it impossible to 
obtain employment. Many have been jailed. It is common for such victims 
to be detained by U.S. Customs when entering the country after 
traveling abroad. They must carry a letter with them from law 
enforcement or the courts at all times in order to prevent wrongful 
detention. Such victims are faced with having their identity associated 
with a criminal record for the rest of their lives.
    It is critical that legislation address the plight of such identity 
theft victims. There must be a way for them to learn that they have a 
wrongful criminal record. S. 2328 includes an excellent provision 
enabling individuals to obtain the content of information about them 
that is compiled by an information broker, employment background check 
service, or individual reference service. If erroneous information is 
compiled in a background check for employment or other purposes, it is 
essential that the subjects of those investigations know the exact 
information that has been disclosed and the source from which the 
information was obtained.
    Individuals who have wrongful criminal records must also be able to 
clear such records through an expedited process involving the law 
enforcement agency that made the arrest, the court system where the 
warrant was issued, and the official criminal records data bases at the 
state and federal levels. At present, there is no such process easily 
available to victims of criminal records identity theft. You might want 
to read about such a measure currently being considered in the 
California legislature, Assemblymember Susan Davis's AB 1897.
    Victims of criminal record identity theft must also be able to 
locate all the information brokers that have obtained the erroneous 
information so they can have those records cleared as well. One 
solution would be to develop a national registry of individuals who are 
victims of criminal record identity theft and require all entities who 
conduct criminal records background checks to access that data base 
before reporting the criminal records information. In California, 
Assemblymember Tom Torlakson's AB 1862 would call for the development 
of such a data base within the California Department of Justice.

    Legislation is not the entire answer to the vexing problem of 
identity theft. The credit granting and reporting industries must step 
up their efforts to assist consumers in preventing fraud altogether and 
in recovering from identity theft. The Associated Credit Bureaus 
announced an identity theft initiative in March 2000 that would 
streamline fraud-handling by the credit reporting industry (www.acb-
credit.com). The ultimate goal of this endeavor should be ``one-stop 
shopping'' for fraud victims--a single phone call to launch the fraud 
clean-up process.
    Both creditors and the CRA's should increase the use of artificial 
intelligence computer programs to identify patterns of fraud and to 
quickly notify consumers of suspected fraud activity. The May 2000 
identity theft victims survey conducted by the Privacy Rights 
Clearinghouse and CALPIRG found that the average amount of time that 
had transpired before individuals learned they were victims of identity 
theft was 14 months. (www.privacyrights.org/AR/idtheft2000.htm). Yet, 
evidence of fraudulent activity can often be easy to detect--numerous 
inquiries on the credit report in a short period of time, changes of 
address, monthly credit account bills that are much higher than usual, 
many late payments when the individual had none previously, and so on.
    Before closing, I want to briefly discuss the role of law 
enforcement in investigating identity theft crimes and assisting 
victims. Three-fourths (76 percent) of the respondents to the PRC/
CALPIRG identity theft survey reported that the police whom they 
contacted were unhelpful. Detectives were assigned to their cases less 
than half of the time. And one-fourth of the victims were not able to 
obtain a police report.
    It is clear that the crime of identity theft calls for some new 
approaches by law enforcement. One approach that is being explored in 
California is the development of a single unit within the police 
department that specialize in identity theft. The Los Angeles Sheriff's 
Department has established such a unit. Assemblymember Robert Hertzberg 
has introduced AB 1949 to fund three pilot projects in the state to 
establish such specialized units.
    Additional suggestions for addressing the multi-faceted crime of 
identity theft can be found in the PRC/CALPIRG identity theft survey, a 
copy of which has been provided to the Subcommittee.
    Thank you for the opportunity to testify about the crime of 
identity theft. Please feel free to contact the Privacy Rights 
Clearinghouse if you seek additional information or assistance.
[GRAPHIC] [TIFF OMITTED] T9466.001

[GRAPHIC] [TIFF OMITTED] T9466.002

[GRAPHIC] [TIFF OMITTED] T9466.003

[GRAPHIC] [TIFF OMITTED] T9466.004

[GRAPHIC] [TIFF OMITTED] T9466.005

[GRAPHIC] [TIFF OMITTED] T9466.006

[GRAPHIC] [TIFF OMITTED] T9466.007

[GRAPHIC] [TIFF OMITTED] T9466.008

[GRAPHIC] [TIFF OMITTED] T9466.009

[GRAPHIC] [TIFF OMITTED] T9466.010

[GRAPHIC] [TIFF OMITTED] T9466.011

[GRAPHIC] [TIFF OMITTED] T9466.012

[GRAPHIC] [TIFF OMITTED] T9466.013

[GRAPHIC] [TIFF OMITTED] T9466.014

[GRAPHIC] [TIFF OMITTED] T9466.015

[GRAPHIC] [TIFF OMITTED] T9466.016

[GRAPHIC] [TIFF OMITTED] T9466.017

[GRAPHIC] [TIFF OMITTED] T9466.018

[GRAPHIC] [TIFF OMITTED] T9466.019

[GRAPHIC] [TIFF OMITTED] T9466.020

[GRAPHIC] [TIFF OMITTED] T9466.021

[GRAPHIC] [TIFF OMITTED] T9466.022

[GRAPHIC] [TIFF OMITTED] T9466.023

    Senator Kyl. Steve Emmert.

                 STATEMENT OF STEVEN M. EMMERT

    Mr. Emmert. Thank you, Chairman Kyl, Senator Feinstein. I 
appreciate the opportunity to testify before the subcommittee 
today about the information practices of our company, LEXIS-
NEXIS, and the industry's leadership efforts to balance privacy 
protections with legitimate, socially beneficial information 
needs.
    Among the services that LEXIS-NEXIS offers are people-
finder or individual reference services that customers use to 
locate individuals and to verify identities. Individual 
reference service products contain only basic identifying 
information, such as name and address, not financial 
information.
    LEXIS-NEXIS is a founding member of the IRSG, which 
represents leading information industry companies, including 
the three major credit reporting agencies. We provide 
commercial information services to help verify the identity of 
or to locate individuals. Customers use individual reference 
services for a variety of purposes, including finding 
witnesses, heirs, pension beneficiaries, and hidden assets. In 
fact, there are a number of Federal regulations that require 
the use of location services for these very purposes. They are 
also used to track down missing and exploited children; locate 
deadbeat dads, parents; to locate bone, blood and organ donors; 
and to verify identities of contributors to political 
campaigns.
    Each of the companies who belong to the IRSG has adopted 
self-regulatory principles governing the dissemination and use 
of personal data. The IRSG developed these principles in 1997 
in conjunction with the Federal Trade Commission.
    As part of these principles, companies commit, among other 
things, to restrict their distribution of non-public 
information through appropriate safeguards. One such safeguard 
prohibits the display of Social Security numbers and dates of 
birth in individual reference service products distributed to 
the general public, the types of websites that Senator 
Feinstein referred to at the beginning of the hearing; also, 
for products distributed to professional and commercial users, 
a prohibition on the display of such information in a less 
truncated and appropriate manner.
    The example of that would be to mask the last four digits 
of the number so that you can use the initial numbers to 
identify the place of issuance and the year of issuance. This 
principle has helped reduce the availability of Social Security 
numbers for sale on the Internet. I have summarized in my 
written testimony the other key safeguards contained in the 
IRSG principles.
    Given the subcommittee's focus on identity theft today, I 
know you are interested in the substantial use that is made of 
these services in the fight against identity theft where 
verifying an individual's identity is crucial. Banks, credit 
card companies, and other types of credit institutions, as well 
as gas, electric and telephone utility companies and government 
entities, distributing public entitlement programs are all 
becoming increasingly plagued by frauds who use existing 
persons' identity to illegally extract products, services and 
money.
    Individual reference service products are also an important 
tool for other types of fraud prevention efforts by businesses. 
The insurance industry, for example, relies on individual 
reference service products to investigate fraudulent claims. 
Credit card companies and department stores use them to detect 
and limit credit card fraud. Banks use them to detect and 
report credit card fraud, insider abuse, and money laundering. 
Many businesses use them to minimize the risk of financial 
fraud when they receive an unusual order for the delivery of 
merchandise.
    Since the victims of identity theft are not only the 
businesses that lose billions to various forms of identity 
theft per year, but also the consumers whose credit is often 
ruined by this insidious act, everybody directly benefits by 
this application of personal identifying information provided 
by individual reference services. My point is that the 
availability of individual reference services helps to reduce 
identity theft.
    Although some have alleged that the availability of 
identifying information from individual reference services 
contributes to identity theft, two Federal agencies, the 
Federal Reserve Board and the Federal Trade Commission, have 
studied this question, and neither agency was able to find any 
support for this proposition.
    With respect to S. 2328, our concern is that if enacted in 
its current form, it would jeopardize the usefulness of such 
services. Specifically, we believe it goes too far in sections 
7 and 8. Section 7 would have the effect of cutting off 
identifying information that we use to index and organize 
disparate information, distinguishing between John Smiths that 
live in the same town.
    I actually checked this morning. Currently, there are 
34,516 entries for ``John Smith'' on a nationwide basis. Trying 
to determine which John Smith you are looking for is a little 
bit of a trick sometimes. When we have the availability of 
prior addresses, age, and Social Security information, we can 
make those distinctions. These indexing and verification uses 
are critical to ensure that the products that we and other IRSG 
members offer to professional and government agencies contain 
accurate and complete information.
    Section 8 would mandate that individual reference service 
companies enter a very different market than they ever sought 
to enter, the consumer market for public record information, as 
a condition of selling public record information to lawyers, 
law enforcement officials, journalists, and other 
professionals.
    We do not object to providing an individual with non-public 
information contained in an individual reference service 
product that specifically identifies him or her. The IRSG 
principles already require this. Nor do we object to advising 
an individual about the nature of public record information 
that an individual reference service makes available in its 
products, if reasonably available, where you can obtain a 
correction and where a correction request can be directed. The 
IRSG principles also require this.
    We do object, however, to having to undertake the enormous 
burden associated with retrieving potentially relevant 
information from a large number of data bases of public records 
and verifying that it pertains to the individual making the 
request. In addition to being burdensome, it would be 
ineffective for the consumer.
    To be effective, any correction of errors must be made with 
the government entities where the sources of the information 
originate. The task of individual reference services in this 
regard is to reflect reliably the data made available by the 
originating public record source.
    Again, I would like to thank you for the opportunity to 
testify this morning and welcome any questions you may have.
    [The prepared statement of Mr. Emmert follows:]

                 Prepared Statement of Steven M. Emmert


                            I. INTRODUCTION

    I am the Director of Government and Industry Affairs for Reed 
Elsevier Inc. and LEXIS-NEXIS, a wholly owned division of Reed 
Elsevier. On behalf of both LEXIS-NEXIS and the Individual Reference 
Services Group, I very much appreciate the opportunity to testify 
before your Committee about the information practices of my company, 
our efforts in the area of acquisition, security, and use of personally 
identifiable information from non-public sources, and industry's 
leadership efforts to balance privacy protections with legitimate, 
socially beneficial information needs.
    LEXIS-NEXIS leads the information industry with the largest one-
stop, dial-up information service, the LEXIS-NEXIS service for legal, 
business, and government professionals. The LEXIS-NEXIS service 
contains more than 2.2 trillion characters and approximately 2.5 
billion documents in more than 10,200 data bases. It adds 14.7 million 
documents each week.
    Today, two million professionals worldwide--lawyers, accountants, 
financial analysts, journalists, law enforcement officials, and 
information specialists--subscribe to the LEXIS-NEXIS services. They 
perform more than 400,000 searches per day. The combined services 
contain more than 24,800 sources: 18,800 news and business sources and 
6,000 legal sources.
    The NEXIS service is the largest news and business online 
information service, with not only news, but company, country, 
financial, and demographic information, as well as market research and 
industry reports. The NEXIS service is unmatched in depth and breadth 
of information. In fact, 120,000 new articles are added each day from 
worldwide newspapers, magazines, news wires and trade journals.
    Although the overwhelming majority of the information sources on 
the LEXIS and NEXIS services are public in nature, all of which are 
available to the general public through their public libraries, the 
local news stand or bookstore, or from government offices, a handful of 
the data sources that contribute to our services are not available to 
the general public. These data sources include consumer credit 
reporting files but contain only basic identifying information (e.g, 
name, address) that is used by customers of LEXIS and NEXIS to locate 
specific individuals.
    LEXIS-NEXIS also is a founding member of the Individual Reference 
Services Group (IRSG), which represents leading information industry 
companies, including the three major credit reporting agencies, that 
provide commercial information services to help verify the identity of 
or locate individuals. Each of the member companies has adopted self-
regulatory principles governing the dissemination and use of personal 
data, principles which the IRSG developed in 1997 in conjunction with 
the Federal Trade Commission. While I will concentrate on LEXIS-NEXIS' 
practices, we believe that these are typical of the practices of 
members of the IRSG.
    Our company and the other members of the IRSG are committed to the 
responsible acquisition and use of personally identifiable information, 
and share the Subcommittee's concern about the potential misuse of data 
for identity theft and other harmful purposes. Indeed, in the fight 
against identity theft, where verifying an individual's identity is 
crucial, individual reference service products are absolutely 
essential.
    My remarks today will focus on three areas. First, because most 
people know relatively little about our industry and may confuse the 
sort of services that are the topic of this hearing with the mainstream 
of the industry, I will explain the customer base and socially 
beneficial uses for individual reference information. For example, law 
enforcement agencies and fraud investigators are major users of these 
services, and at a 1997 FTC workshop on data base privacy the Secret 
Service, the Treasury Department's Financial Crimes Enforcement Network 
(``FINCEN''), American Bankers Association, and National Retail 
Federation all testified to the importance of these services for their 
work preventing and pursuing fraud.
    Second, I will provide some background about the IRSG principles 
and their enforcement mechanisms. I also will illustrate some of the 
IRSG principles by explaining how LEXIS-NEXIS implements them.
    Finally, I will make some observations about the impact of sections 
7 and 8 of S. 2328 upon LEXIS-NEXIS and other individual reference 
services.

          II. USES OF INDIVIDUAL REFERENCE SERVICE INFORMATION

    Individual reference services are companies that furnish timely and 
reliable information to identify and locate individuals. The 
information is used by governmental, private sector, and non-profit 
entities for a wide range of beneficial purposes.
    Individual reference services, such as those provided by LEXIS-
NEXIS, are often the only way that individuals with limited resources, 
through the assistance of a professional who has access to these 
services, can obtain critical information. LEXIS-NEXIS' customers are 
professionals, primarily in the fields of law, business, journalism, 
and law enforcement.
    For example, law enforcement agencies use these services to locate 
criminals and witnesses to crimes, and to confirm identities. In fact, 
individual reference services play an important role in combating the 
very sorts of fraud that flow from personal financial information 
falling into the wrong hands. At the June 1997 FTC workshop examining 
reference services, witnesses from both FINCEN and the Financial Crimes 
Section of the U.S. Secret Service testified to the value and 
importance of these services for their work.
    In the fight against identity theft, where verifying an 
individual's identity is crucial, individual reference service products 
are absolutely essential. Banks, credit card companies, and other types 
of credit institutions, as well as gas, electric, and telephone 
companies and governmental entities distributing public entitlement 
programs, are all becoming increasingly plagued by fraudsters who use 
an existing person's identity to illegally obtain products, services 
and money. The best, and perhaps only, means of preventing this type of 
fraud is to crosscheck through the use of personal identifying data, 
often provided by individual reference services. Since the victims of 
identity theft are not only the businesses that lose billions to 
various forms of identity theft per year, but also the consumers whose 
credit is often ruined by this insidious act, everyone directly 
benefits by this application of the personal identifying information 
provided by individual reference services.
    Individual reference service products also are an important tool 
for other types of fraud prevention efforts by businesses. The 
insurance industry, for example, relies on individual reference service 
products to investigate fraudulent claims. Credit card companies and 
department stores use them to detect and limit credit card fraud. Banks 
use them to detect and report credit card fraud, insider abuse, and 
money laundering. Many businesses use them to minimize the risk of 
financial fraud when they receive an unusual order for delivery of 
merchandise. Other businesses use them when performing due diligence 
before engaging in a business venture with a little-known corporation 
in the increasingly mobile world economy. The Insurance Information 
Institute reports that special investigation units save their companies 
about $10 for every dollar invested in them.
    Reference services help people in many other ways. One of the most 
compelling is child support enforcement. Whereas government-compiled 
child support data bases have encountered difficulties in some 
instances, individual reference services have proven to be invaluable 
in tracking down parents who are delinquent in these obligations. In 
this way, these services advance personal responsibility, give much-
needed income to divorced parents and their children, help free 
families from welfare dependency, and provide an additional source of 
revenue to state welfare programs. Individual reference services can 
locate non-custodial parents--quickly and inexpensively, even in 
circumstances where they move to a different state or begin using a 
different name. The Association for Children for Enforcement of Support 
(``ACES''), the leading child support advocacy organization, uses 
LEXIS-NEXIS' P-TRAK service to assist families--approximately 80 
percent of whom are on welfare--in locating parents who have failed to 
meet legal child support obligations. ACES has reported tremendous 
success with the service, locating more than 75 percent of the 
``deadbeat'' parents they sought, and helping families receive much-
needed support.
    Among the many other important uses of individual reference 
services are:

    <bullet> finding long-lost family members,
    <bullet> locating heirs to estates who have moved or changed their 
names through marriage,
    <bullet> locating pension fund beneficiaries who have left a 
company,
    <bullet> locating victims of fraud schemes or environmental 
hazards,
    <bullet> protecting consumers from unlicensed professionals and 
sham businesses,
    <bullet> locating blood, organ and bone marrow donors,
    <bullet> promoting the transparency of the political process by 
providing easy-to-search information on individuals' campaign 
donations,
    <bullet> locating witnesses, and
    <bullet> providing citizens with efficient, ready access to 
Federal, state, and local government information.

    From these examples, I hope the Subcommittee will appreciate the 
value of individual reference services.

                         III. THE IRSG APPROACH

Privacy Protection
    Rapid advances in technology, a highly mobile society, the need to 
prevent fraud, and other market demands for information have spurred 
increased reliance upon information services provided by companies like 
LEXIS-NEXIS. These changes in society and technology also have resulted 
in a heightened interest in the privacy considerations implicated by 
such services. At LEXIS-NEXIS we are attuned to these issues and have 
strongly committed to taking a leadership role in effectively 
addressing them.
    Privacy protection in the United States has evolved in a way that 
offers individuals effective protections while, at the same time, not 
limiting the benefits of technological advances. The ability to 
preserve both of these important interests results from a network of 
different policies. These policies are tailored to provide protections 
in specific circumstances in order to prevent actual or potential 
abuses of personal information. This sectoral approach is preferable to 
an omnibus or ``one-size-fits-all'' privacy policy that would govern 
all industries. Addressing privacy issues within specific industry 
sectors has proven very effective in evolving and responding to changes 
in industry and society.

The IRSG Principles
    The importance of defining privacy practices tailored to specific 
types of information is demonstrated in the IRSG principles.
    In September 1996, in the closing hours of the 104th Congress, the 
Federal Trade Commission proposed a broad prohibition on the use of 
credit header information--non-financial identifying information 
obtained from a consumer reporting agency's data base. Members of the 
individual reference service industry and those who rely on credit 
header information alerted Congress that such a prohibition would 
severely limit important uses of this information. As a result of 
arguments made by industry, regulatory efforts were postponed until a 
further study of the issues could be conducted.
    This gave LEXIS-NEXIS the opportunity to join together with 13 
other companies in the individual reference services industry to form 
the IRSG. The companies that comprise the IRSG are the leaders in 
providing information and assisting users in identifying and locating 
individuals. In close consultation with the Federal Trade Commission, 
the IRSG developed a comprehensive set of self-regulatory principles 
backed by third-party assessments and government enforcement that these 
companies follow.
    These principles focus on non-public information, that is, 
information about an individual that is of a private nature and neither 
available to the general public nor obtained from a public record. For 
example, the principles govern information obtained from credit 
headers, such as social security numbers and addresses and telephone 
numbers.
    Companies that sign on to the IRSG principles commit--among other 
things--to:

    <bullet> acquire individually identifiable information only from 
sources known as reputable,
    <bullet> restrict their distribution of non-public information 
through appropriate safeguards,
    <bullet> educate the public about their data base services, and
    <bullet> furnish individuals with a copy of the information 
contained in services and products that specifically identifies them, 
unless the information is publicly available.

    One of the safeguards on the distribution of non-public information 
is a prohibition on the display of social security numbers and dates of 
birth in individual reference service products distributed to the 
general public and, for products distributed to professional or 
commercial users, a prohibition on the display of such information 
unless truncated in an appropriate manner (e.g., masking of the last 
four or more digits of social security numbers). This IRSG principle 
has helped reduce the availability of social security numbers for sale 
on the Internet.

Self-Regulation with ``Teeth''
    Third-party assessments backed by government enforcement provide 
real ``teeth'' for enforcing these principles. Enforcement rests on the 
following three pillars:

    <bullet> Legal sanctions--Any company that holds itself out to the 
public as following the principles may be responsible under existing 
Federal and state law if the company fails to live up to them. Both the 
Federal Trade Commission and state attorneys general can bring charges 
under Section 5 of the Federal Trade Commission Act and similar state 
laws against member companies that fail to adhere the principles.
    <bullet> Cut-off of data supply--Signatories to these principles 
require by contract that all companies buying non-public data from them 
for resale abide by the principles. Non-complying companies risk losing 
access to the data they need for their products or services. This is 
particularly significant in that it is estimated that IRSG signatories 
control 90 percent of all non-public information obtained from credit 
headers.
    <bullet> Independent assurance reviews--Every IRSG company must 
undergo a third-party assessment to verify compliance with the 
principles. I will describe this in more detail below.

Information Practices
    In the spirit of openness, the principles require individual 
reference services to have an information practices policy statement 
available to the public upon request. These statements describe:

    <bullet> the types of information included,
    <bullet> the types of sources from which that information is 
obtained,
    <bullet> the nature of how the information is collected,
    <bullet> the type of entities to whom the information may be 
disclosed, and
    <bullet> the type of uses to which the information may be put.

    This openness enables individuals to understand the reference 
service's use of the information it possesses. Individual reference 
services also inform individuals, upon request, of the choices 
available to limit access to or use of information about them contained 
in a company's products and services. Further, the principles require 
an individual reference service to provide information about the nature 
of public record and publicly available information that it makes 
available in its products and services and the sources of such 
information.

Third-Party Assessments
    To help ensure that member companies do not make unsubstantiated 
assertions of compliance, the IRSG principles require that independent 
professional services conduct annual third-party assessments of their 
compliance. These independent professional services can be accounting 
firms, law firms, or security consultants who use the criteria 
developed by PriceWaterhouseCoopers for the IRSG.
    When the principles were adopted in December 1997, these companies 
agreed that the assurance reviews would be completed within 15 months. 
I am pleased to report that this is the second consecutive year in 
which the companies that offer products that fall within the scope of 
the IRSG principles and subscribe to the principles have successfully 
undergone these assessments. As this milestone attests, the IRSG has 
made great strides through self-regulation to secure the benefits of 
information service resources and ensure effective protection of 
consumer privacy.

        IV. LEXIS-NEXIS' PRACTICES: THE IRSG PRINCIPLES AT WORK

    In addition to the IRSG principles, LEXIS-NEXIS maintains its own 
code of fair information practices. While these practices are based 
upon LEXIS-NEXIS' policies, they also provide an example of how the 
IRSG principles are implemented.

A. LEXIS-NEXIS Acquires Information Only From Reputable Sources
    Section II of the IRSG principles requires that information be 
acquired ``from only sources known as reputable in the government and 
private sectors.'' IRSG members are specifically required ``to 
understand an information source's data collection practices and 
policies before accepting information from that source.''
    The majority of the information contained in LEXIS-NEXIS data bases 
is public record information. Moreover, a significant portion of the 
information we provide comes from publicly available information such 
as news reports. A few of our many data bases contain some information 
from non-public sources, such as credit header information (the non-
financial, individual identifying information derived from the top of a 
credit report).
    At present, we do not provide individually identifiable financial 
information from non-public sources. However, as discussed above, the 
IRSG principles are sufficiently broad to encompass, and would apply 
to, any member company's provision of this sort of non-public 
information.
    Because most of our services offer public records, in many cases 
LEXIS-NEXIS obtains information directly from the government entity 
that originated it. In addition to governmental sources, the 
information gathered for our data bases is collected from a wide 
variety of other sources, some of which are large, well-known companies 
and smaller, lesser-known businesses. Regardless of the size of the 
source, in our acquisition of information, we must be confident that 
all of the information we obtain is owned by the sources and possessed 
in a legal manner. We review the data collection practices and policies 
of our sources before accepting information from them to determine 
whether the data they propose to furnish to us was compiled in a lawful 
and ethical manner. Furthermore, in order to continue to ensure the 
accuracy and acceptable origin of information in our data bases, we 
also engage in occasional site visits to evaluate directly the 
information practices of the source.
    In addition, Section III of the IRSG principles requires that 
``[r]easonable steps be taken to help assure the accuracy of 
information in individual reference services.'' LEXIS-NEXIS has 
embraced this as one of our core policies for many years and through 
the IRSG we have reaffirmed our commitment to this important principle. 
LEXIS-NEXIS strives to obtain or create exact reproductions of the 
machine-readable versions of public records as copied and maintained by 
the official custodian of the records. We enter into written contracts 
with all of our sources that contain provisions attesting to the 
accuracy of the information the source provides LEXIS-NEXIS. These 
provisions instill confidence that our information is accurate by 
providing both a deterrent against providing us with inaccurate 
information, as well as recourse against sources that may violate these 
provisions.
    LEXIS-NEXIS' commitment to accuracy, however, does not end with the 
contractual commitment from the source. We also engage in original 
source checks to verify that the source is in compliance with our 
agreement. From time to time LEXIS-NEXIS will go to the original 
jurisdiction where information is generated and compare samples of 
information obtained from the jurisdiction with the information 
provided to LEXIS by its source. This procedure allows us to measure 
the level of accuracy of our suppliers.

B. Security
    Section VI of the IRSG principles requires signatories to maintain 
facilities and systems to protect information from unauthorized access 
and from persons who may exceed their authorization. LEXIS-NEXIS 
employs a wide array of measures to protect at all times the security 
of our products and the information obtained from our suppliers. Our 
security measures are deployed both within our computer systems and 
within our physical plant.
    To establish security within our data base system, we employ the 
most effective security programming available. We constantly evaluate 
our system looking for weaknesses in order to eliminate them and 
upgrade security.
    Our physical plant also uses the most effective security available, 
including state-of-the-art surveillance systems. Access to the various 
sections of our facilities is limited to authorized employees. This is 
done through the use of a ``swipe-in''/``swipe-out'' card system that 
allows us to account for individuals who are working in certain areas 
and the times that they are in these areas. Security guards, 
surveillance cameras, and other surveillance techniques also are 
employed. Our security system provides the highest level of 
accountability, and has proved extremely successful in eliminating 
unauthorized use of information. Additionally, all LEXIS-NEXIS 
employees are required to sign a non-disclosure agreement stating that 
they will not disclose confidential information to which they have 
access as part of their job responsibilities.

C. Selective and Limited Distribution
    Section V of the IRSG principles addresses distribution of non-
public information. Section V.A requires that individual reference 
services distribute non-public information only to qualified 
subscribers and sets out a lengthy set of conditions that determine 
these qualifications, as well as recordkeeping requirements concerning 
subscribers.
    All of our subscribers enter into formal agreements with LEXIS-
NEXIS that define the limits and appropriate uses of information 
obtained from our data bases. For example, in its customer agreements, 
LEXIS-NEXIS requires customers to agree contractually not to use 
information obtained from the data bases for purposes that would 
violate the Fair Credit Reporting Act. In addition, a warning about 
FCRA restrictions is prominently visible to LEXIS-NEXIS customers 
before they access many of the data bases contained in the public 
record library, as well as files containing non-public information. 
This warning states:

          The Fair Credit Reporting Act (15 U.S.C. Sec. 1681) prohibits 
        use of information from this file to determine a consumer's 
        eligibility for credit or insurance for personal, family or 
        household purposes, employment or a government license or 
        benefit.

    To become a LEXIS-NEXIS subscriber, the prospective customer must 
furnish information including company/organization name, address, 
contact person and telephone number. We do not respond to anonymous 
requests for information, and we thus would be able to assist 
authorities in the event that subscribers were ever to misuse 
information.

            V. ADVERSE IMPACT OF SECTIONS 7 AND 8 OF S. 2328

    S. 2328 would directly affect individual reference services in two 
ways. First, section 7 would cut off the supply of the type of 
identifying information we obtain from consumer reporting agencies and 
use to help ensure accuracy in indexing and compiling disparate 
information. Second, section 8 would mandate that individual reference 
service companies enter a very different market than they ever sought 
to enter--the consumer market for public record information--as a 
condition of selling public record information to lawyers, law 
enforcement officials, journalists, and other professionals. These 
proposals are, at best, burdensome and unnecessary and, at worst, 
unconstitutional and harmful to consumers.

Section 7--Cutting Off the Supply of Identifying Information
    In prohibiting consumer reporting agencies from supplying anything 
other than a consumer's name and current address without a 
``permissible purpose,'' as defined by the Fair Credit Reporting Act, 
section 7 would have the effect of cutting off identifying information 
that we use to index and organize disparate information. Distinguishing 
between ``John Smiths'' who live in the same town is far more effective 
when we have available to us prior addresses, age, and social security 
number information. These indexing and verification uses are critical 
to ensuring that the products we, and other IRSG members, offer to 
professional and government agencies contain accurate and complete 
information.
    The use of social security number information for indexing and 
verification purposes is different than the display of such information 
in individual reference service products. As noted earlier, the IRSG 
principles prohibit the display of social security numbers and dates of 
birth in individual reference service products distributed to the 
general public and, for products distributed to professional or 
commercial users, prohibit the display of such information unless 
truncated in an appropriate manner.\1\
---------------------------------------------------------------------------
    \1\ This IRSG principle has helped reduce the availability of 
social security numbers for sale on the Internet. The most common 
sources of such information today are Web sites operated by private 
investigators and Web sites selling ``stale'' information they obtained 
prior to the implementation of the IRSG principles.
---------------------------------------------------------------------------
    Cutting off the availability of social security numbers and similar 
identifying information for indexing and verification purposes is 
particularly ironic in light of the requirement in section 8, discussed 
below, that individual reference service companies provide consumers 
with copies of  ``their files,'' who in turn will probably review the 
information for accuracy and completeness.

Section 8--Consumer Review of Public Record Information in their 
        ``Files''
    Requiring individual reference service providers, upon request, to 
disclose to a consumer ``the nature, content, and substance of all 
information in the file maintained by the provider,'' is unnecessary, 
burdensome, and unwise.
    Section 8's requirement is unnecessary insofar as the IRSG's access 
principle already requires an individual reference service to provide 
an individual with ``non-public information contained in'' its look-up 
products that specifically identifies him or her. (Two types of 
information are exempted from this requirement: information obtained on 
a limited use basis from a governmental agency and information whose 
disclosure is limited by law or legally recognized privilege.)
    For public record information (and publicly available information) 
contained in an individual reference service's products, the IRSG 
principles require a company, upon request, to advise an individual 
about the nature of such information that it makes available in its 
products and the sources of such information. Public record information 
is information about or related to an individual that has been obtained 
originally from the records of a Federal, state, or local government 
entity that are open for public inspection. Examples of public records 
include titles to real property, real property tax assessor records, 
bankruptcies, judgments, liens, state professional licenses, and death 
records.
    When contacted by an individual concerning an alleged inaccuracy 
about that individual in its public record information, the IRSG 
principles further require an individual reference service company to 
inform the individual of the source of the information and, if 
reasonably available, where a request for correction may be directed. 
To be effective, any correction of errors must be made with the 
government entities that are the sources of this information. The task 
of individual reference services in this regard is to reflect reliably 
the data made available by the originating public record source.
    Moreover, neither inaccuracies nor consumer harm are a significant 
issue in connection with individual reference services. Technological 
developments and quality assurance measures yield information that 
reliably mirrors the original public records. Furthermore, the FTC 
acknowledged in its 1997 Report to Congress on Individual Reference 
Services that ``neither workshop participants nor commentators 
identified concrete evidence of harm linked directly to inaccurate 
records offered by look-up services.'' Nor has any evidence to the 
contrary emerged since 1997. In addition, statutory safeguards do exist 
for individuals in the vast majority of circumstances in which the 
distribution of inaccurate public record information might cause them 
real harm. For example, the Fair Credit Reporting Act already regulates 
extensively the use of public record information in connection with 
decisions about a consumer's eligibility for employment, credit, or 
insurance.
    Weighed against this dearth of evidence of inaccuracies or consumer 
harm is the enormous potential burden associated with retrieving 
potentially relevant information from the large number of data bases of 
public records and verifying that it pertains to the individual making 
the request. This is necessary because many individual reference 
services, unlike consumer reporting agencies, do not maintain ``files'' 
in connection with specific individuals. For example, individual 
reference services leave to their customers the tasks of formulating 
their search inquiries, of personally reviewing the search results to 
determine whether the search might have been under-inclusive and, where 
the search inquiry is over-inclusive, of personally reviewing the 
search results to determine what records may be relevant. To meet the 
bill's demands, however, individual reference services would need to 
hire teams of customer service representatives, train them, and assume 
the risk of error in formulating search inquiries and making associated 
decisions. In short, it would force individual reference services to 
assume risks they long ago shifted to their customers.
    Finally, section 8 would require that, as a condition of selling 
public record information to lawyers, law enforcement officials, 
journalists, and other professionals, individual reference services 
enter the consumer market for public record information. This is a very 
different market than most individual reference services ever sought to 
enter. Moreover, imposing this condition would run afoul of the First 
Amendment because it would unduly burden the publication of information 
already in the public domain. See, e.g., The Florida Star v. B.J.F., 
491 U.S. 524 (1989) (striking down statute that imposed civil liability 
upon a newspaper for publishing the name of a rape victim which it had 
obtained from a publicly released police report); Smith v. Daily Mail 
Publishing Co., 443 U.S. 97 (1979) (finding unconstitutional the 
indictment of two newspapers for violating a state statute forbidding 
newspapers to publish the name of any youth charged as a juvenile 
offender).

                             VI. CONCLUSION

    Our company and the IRSG are committed to the responsible 
acquisition and use of personally identifiable information, and share 
the Subcommittee's concern about the potential misuse of data for 
identity theft and other harmful purposes. Nevertheless, individual 
reference service products are absolutely essential in the fight 
against identity theft, and the Congress should not take any steps that 
would jeopardize the usefulness of such services.

    Senator Kyl. Thank you.
    Mr. Pratt.

                  STATEMENT OF STUART K. PRATT

    Mr. Pratt. Chairman Kyl and Senator Feinstein, let me join 
with the others who have testified already and thank you very 
much for holding this hearing. It is important to us, as the 
Associated Credit Bureaus, because we represent 500 or so 
companies out in the marketplace who, in fact, are the 
information companies who ultimately have their data bases 
polluted by the crime of identity theft.
    Mr. Chairman, in particular, we thank you for your 
thoughtful leadership on the enactment of the Identity Theft 
Assumption and Deterrence Act of 1998. It was the right step, 
it was the right time. In fact, at several hearings that I have 
attended--and one of the reasons we go to these hearings is 
that it isn't just a matter of telling you what we think. It is 
a matter of hearing what else is said.
    Each time I hear a victim, it gives me a chance to go back 
to our own industry and make it more real to our chief 
executives, to encourage them to be more efficient, to make 
sure that they understand that we all have personal lives. I 
have two children and they go to swim team and they do other 
things, and if I am spending most of my time unraveling a 
problem, I am not spending my time on what I guess I would 
think of as higher priorities in our personal lives.
    In fact, that is really what drove the Associated Credit 
Bureaus to establish an identity theft task force that 
consisted of the chief executive officers. It was a 
longitudinal process. We actually hired a former attorney 
general to work with us and we have launched our first series 
of initiatives. They were announced March 14 and were a part of 
the identity theft summit that was hosted by the Department of 
the Treasury earlier this year.
    We are not finished in terms of our work. I think it is 
time for industry to be progressive. It is time for industry to 
look at what we can do. I remember Jim Bauer a number of years 
ago testifying, in fact, to a Senate Banking Committee 
subcommittee encouraging industry to step forward and take its 
responsibility seriously in terms of how this crime affects 
consumers. It is invasive, it is longitudinal. There is a snarl 
of problems that result from this, and I think each one of us 
has our role in trying to solve that problem. We are unhappy, 
again, with that data that is in our file that is inaccurate 
that causes a legitimate consumer to not have access to the 
benefits and the services that they would like to have in this 
society today.
    So with that, let me just focus a few comments on the types 
of initiatives that we have undertaken so far, at least some of 
which are consistent with some of the ideas we have heard 
discussed already.
     We think it is very important that we do what we can to 
improve both the use of and the effectiveness of the security 
alerts that we add to the credit files. You have heard 
testimony today saying are these effective. We want them to be 
effective, obviously. So, in fact, just this past month we have 
decided to standardize both the literal statement as well as 
the coding of what goes into a security alert to ensure that 
our customers across any technology platform can look for and 
identify that security alert to make sure that they can then 
take the actions that they feel are appropriate.
    We also think that consumers, when they are calling three 
different consumer reporting agencies for credit fraud, for 
example, need an even experience. We interviewed victims who 
said, you know, it is hard for me if you are asking for this 
data, but you are asking for this data; you ask me to jump 
through this hoop, but you ask me to jump through this hoop. So 
can we harmonize, can we standardize some of that experience?
    We are moving to standardize the advice we give consumers. 
We are moving to standardize the communications that we give to 
consumers. We are moving, in fact, to standardize what steps we 
take first in the process for consumers.
    Another step was, in fact, even on a weekend where a 
consumer would get an automated voice attendant potentially 
rather than get live personnel. One of the keys is to assure 
that consumers have confidence in what is being done. I think I 
heard testimony today, and I have heard this before: I am still 
not sure I feel good, I am not sure I am safe.
    We want to create a safer world, and so in our case we will 
add a security alert automatically even if you just leave a 
message--no verification, no authentication, no hoops. So, that 
is going to be a change that we are making this year.
    We will also take you out of all pre-screened offers of 
credit automatically, no verification, no efforts to check 
further, but just do it. And we will also issue your file 
within 3 business days and get that out into the mail so that 
you can look at that file, and then you will have access to an 
800 number and live personnel where you can continue the 
process of working through this.
    We will escalate communications to credit grantors even 
where we do not yet see credit on the file. This is a change in 
our practices, so that we will communicate electronically 
through a network that we have established and funded through 
the 1990's which allows us to communicate with a majority of 
our data furnishers so that even where there is just what we 
call an inquiry on the file, and if a consumer says I don't 
recognize doing business with that bank, and we don't see an 
account yet on the file, but we wonder what is happening, is 
there something in the pipeline, that is part of the 
longitudinal effect. You see what is on the file. It is a 
snapshot, but there may be more that is cycling in, and this is 
the experience that consumers have. It seems to go on and on 
and on.
    One of the most important steps I think we have taken is 
that we are going to build new software technologies that will 
be available within 7 months of that announcement we made 
earlier this year. We are going to monitor the file, and I 
think this is going to help solve one of the problems.
    One of the problems is that consumer says, ``You know, it 
is on my shoulders to check the file, and to check it again and 
check again and make sure I am still OK.'' Well, we are going 
to trigger communications to consumers where we see unusual 
file activity. We are actually going to mail or communicate 
with that consumer and say we have seen something happen to 
your file that doesn't look right, can you call us again on the 
800 number, free of charge, and escalate our linkage with the 
consumer who has been victimized.
    Again, I think it makes good business sense, by the way, to 
keep the file clean once we have gotten it cleaned back up 
again. But we can't be confident that all of the credit 
problems out there have been cleaned up as well. So we have to 
try to keep it clean by staying in touch with that consumer.
    So, that is a sampling of the efforts that we are 
undertaking, and we have more on the way, actually. I have a 
conference call next week with another segment of our industry 
to further refine and take some additional steps to try and 
build these efficiencies into the system.
    So I am happy to be here today. We are happy to answer your 
questions and we appreciate the opportunity you are taking to 
learn and get the big picture of what is happening on this 
issue of identity theft.
    [The prepared statement of Mr. Pratt follows:]

                 Prepared Statement of Stuart K. Pratt

    Mr. Chairman and Members of the Subcommittee, my name is Stuart 
Pratt and I am vice president of government relations for the 
Associated Credit Bureaus, headquartered here in Washington, D.C. ACB, 
as we are commonly known, is the international trade association 
representing over 500 consumer information companies that provide fraud 
prevention and risk management products, credit and mortgage reports, 
tenant and employment screening services, check fraud and verification 
services, and collection services to hundreds of thousands of customers 
across the United States and the globe.
    Our members are the information infrastructure that contributes to 
the safety and soundness of our banking and retail credit systems; 
which:

    <bullet> allows for the efficiencies of a secondary mortgage 
securities marketplace that saves consumers an average of 2 percentage 
points on the cost of a mortgage.
    <bullet> helps e-commerce and bricks-and-mortar businesses 
authenticate applicant data, thus reducing the incidence of fraud.
    <bullet> gives child support enforcement agencies the information 
tools necessary to accomplish their mission.
    <bullet> allows states to reduce the incidence of many forms of 
entitlement fraud.

    On behalf of ACB, I want to commend you for holding this hearing on 
the issue of identity theft and for your efforts in the previous 
Congress, leading to the enactment of the Identity Theft Assumption and 
Deterrence Act of 1998. Identity theft is an equal-opportunity crime 
that can affect any of us in this hearing at any time. It is a 
particularly invasive form of fraud where consumers, consumer reporting 
agencies and creditors must untangle the snarl of fraudulent accounts 
and information resulting from a criminal's actions. This task is often 
frustrating and time-consuming for all concerned.
    Before I specifically address how our industry has responded to the 
needs of creditors and victims of identity theft, I have found it 
helpful to provide a short review of what a consumer reporting agency 
is, what is contained in a consumer report, and the law that governs 
our industry.

            CONSUMER REPORTING AGENCIES AND CONSUMER REPORTS

    Consumer reporting agencies maintain information on individual 
consumer payment patterns associated with various types of credit 
obligations.\1\ The data compiled by these agencies is used by 
creditors and others permitted under the strict prescription of the 
Fair Credit Reporting Act (15 U.S.C. 1681 et seq.) to review the 
consumer's file.
---------------------------------------------------------------------------
    \1\ Our members estimate that there are approximately 180 million 
credit active consumers. Since our members operate in competition with 
each other, these consumers are likely to have more than one credit 
history maintained.
---------------------------------------------------------------------------
    Consumer credit histories are derived from, among other sources, 
the voluntary provision of information about consumer payments on 
various types of credit accounts or other debts by thousands of data 
furnishers such as credit grantors, student loan guarantee and child 
support enforcement agencies. A consumer's file may also include public 
record items such as a bankruptcy filing, judgment or lien. Note that 
these types of data sources often contain SSN's as well.
    For purposes of data accuracy and proper identification, generally 
our members maintain information such as a consumer's full name, 
current and previous addresses, Social Security Number (when 
voluntarily provided by consumers), date of birth or age, and sometimes 
places of employment. This data is loaded into the system on a regular 
basis to enhance the completeness and accuracy of data.\2\
---------------------------------------------------------------------------
    \2\ Note that there are in fact a number of major credit reporting 
systems in this country. Within ACB's membership the three most often 
recognized systems are Equifax, Atlanta, GA; Experian, Orange, CA; and 
Trans Union, Chicago, IL. These systems not only manage their own data 
but also provide data processing services for the over 400 local, 
independently-owned, automated credit bureaus in the Association's 
membership.
---------------------------------------------------------------------------
    It is important to note that the vast majority of data in our 
members' systems simply confirms what you would expect: that most 
consumers pay their bills on time and are responsible, good credit 
risks. This contrasts with the majority of systems maintained in other 
countries, such as Japan, Australia, or Italy, which store only 
negative data and do not give consumers recognition for the responsible 
management of their finances.
    As important as knowing what we have in our files is also knowing 
what types of information our members do not maintain in files used to 
produce consumer reports. Our members do not know what consumers have 
purchased using credit (e.g., a refrigerator, clothing, etc.) or where 
they used a particular bank card (e.g., which stores a consumer 
frequents). They also do not have a record of when consumers have been 
declined for credit or other benefit based on the use of a consumer 
report. Medical treatment data is not a part of the data bases, and no 
bank account balance information is available in a consumer report.

                  THE FAIR CREDIT REPORTING ACT (FCRA)

    In addition to our general discussion of the industry, we believe 
it is important for your Subcommittee to have a baseline understanding 
of the law that regulates our industry. Enacted in 1970, the Fair 
Credit Reporting Act was significantly amended in the 104th Congress 
with the passage of the Credit Reporting Reform Act.\3\
---------------------------------------------------------------------------
    \3\ Public Law 104-208, Subtitle D, Chapter 1.
---------------------------------------------------------------------------
    Congress, our Association's members, creditors and consumer groups 
spent over 6 years working to modernize what was the first privacy law 
enacted in this country (1970). This amendatory process resulted in a 
complete, current and forward-looking statute. The FCRA serves as an 
example of successfully balancing the rights of the individual with the 
economic benefits of maintaining a competitive consumer reporting 
system so necessary to the efficient operation and growth of a market-
oriented economy.
    The FCRA is an effective privacy statute, protecting the consumer 
by narrowly limiting the appropriate uses of a consumer report (often 
we call this a credit report) under Section 604 (15 U.S.C. 1681b), 
entitled ``Permissible Purposes of Reports.''
    Some of the more common uses of a consumer's file are in the 
issuance of credit, subsequent account review and collection processes. 
Reports are also, for example, permitted to be used by child support 
enforcement agencies when establishing levels of support.
    Beyond protecting the privacy of the information contained in 
consumer reports, the FCRA also provides consumers with certain rights 
such as the right of access; the right to dispute any inaccurate 
information and have it corrected or removed; and the right to 
prosecute any person who accesses their information for an 
impermissible purpose. The law also includes a shared liability for 
data accuracy between consumer reporting agencies and furnishers of 
information to the system.

                  FRAUD PREVENTION AND IDENTITY THEFT

    Let me now turn to our industry's efforts with regard to fraud. Our 
industry has a history of bringing forward initiatives to address 
fraud. These efforts focus on use of new technologies, better 
procedures and education.
    Consider the following efforts undertaken during this past decade:

    <bullet> ACB formed a Fraud and Security Task Force in 1993.
    <bullet> A ``membership alert form'' was developed for use in 
notifying other ACB credit bureau members of customers who were 
committing fraud through the misuse of data. Implemented in 1994.
    <bullet> A ``Universal Fraud Information Form'' was developed for 
use by creditors when communicating the incidence of fraud to national 
consumer reporting systems.
    <bullet> The credit reporting industry developed a comprehensive 
presentation on ACB fraud and security initiatives for delivery to 
customer segments during 1995.
    <bullet> Minimum standards for data access equipment and software 
were announced to industry suppliers in March 1995.
    <bullet> ACB members have implemented company-specific limitations 
on the availability of account numbers, and truncation of Social 
Security Numbers on consumer reports sold to certain customer segments.
    <bullet> Experian, Equifax and Trans Union voluntarily formed 
special fraud units with toll-free number service and consumer 
relations personnel specially trained to work with fraud victims.
    <bullet> A hardware and software certification program has been 
created by the industry and administered by a third-party certification 
authority for those access products, which have implemented industry 
security standards.
    <bullet> Over 150,000 copies of a new customer educational brochure 
entitled ``We Need Everyone's Help to Protect Consumer Privacy and 
Reduce Fraud'' have been distributed since its first printing in 4th Q. 
1997. An education program was also developed for use by ACB members in 
presenting the information found in the brochure. 2nd Q. 1998.
    <bullet> On March 14, 2000, the ACB announced new voluntary 
initiatives to assist consumers who have been victimized by identity 
theft. Following is a description of each initiative and also attached 
is our press release.
    <bullet> Advocate the use and improve the effectiveness of security 
alerts through the use of codes transmitted to creditors. These alerts 
and codes can help creditors avoid opening additional fraudulent 
accounts.
    <bullet> Implement victim-assistance best practices to provide a 
more uniform experience for victims when working with personnel from 
multiple fraud units.
    <bullet> Assist identity theft victims by sending a notice to 
creditors and other report users when the victim does not recognize a 
recent inquiry on the victim's file.
    <bullet> Execute a three-step uniform response for victims who call 
automated telephone systems: automatically adding security alerts to 
files, opting the victim out of prescreened credit offers, and sending 
a copy of his or her file within three business days.
    <bullet> Launch new software systems that will monitor the victim's 
corrected file for 3 months, notify the consumer of any activity, and 
provide fraud unit contact information.
    <bullet> Fund, through ACB, the development of a series of consumer 
education initiatives through ACB to help consumers understand how to 
prevent identity theft and also what steps to take if they are victims.

                               CONCLUSION

    In conclusion, you can see by our actions that our members have a 
history of combating fraud of all types including identity theft. We 
were the first industry trade association to form a task force to 
consider how best to address the plight of victims who through no fault 
of their own are left with, as we said at the beginning of this 
testimony, a snarl of fraudulent accounts to deal with.
    Along with our progress, there are a few cautionary thoughts that I 
would like to leave with each of you. It is difficult for laws to 
prescribe procedures and practices that actually prevent crime. Crime 
is a moving target and, thus, our fraud prevention strategies must be 
as agile as the tactics of the criminals.
    Information is a key economic growth factor in this country. Laws 
that limit legitimate and beneficial information use are most likely to 
take fraud prevention tools out of the hands of legitimate industry. 
Ironically, to prevent fraud, we must be able to crosscheck 
information. Absent this ability to authenticate identifying 
information, we will be less able to prevent the very crime we are 
discussing here today.
    I think the initiatives I have discussed here today provide ample 
evidence that our industry is serious about doing its part in reducing 
the crime of identity theft and fraud and in helping consumers restore 
their good name and an accurate credit file. Just as it is to 
consumers, the integrity, accuracy and reliability of the credit files 
our members maintain is vitally important.
    Thank you for this opportunity to testify.
                                 ______
                                 

                              News Release

                            [Norm Magnuson]

     CREDIT REPORTING INDUSTRY ANNOUNCES IDENTITY THEFT INITIATIVES

    Associated Credit Bureaus, the international trade association for 
the consumer reporting industry, announced today a commitment on behalf 
of the nation's leading credit reporting agencies to voluntarily 
implement a comprehensive series of initiatives to assist victims of 
identity theft in a more timely and effective manner.

          ``While there is no evidence to show that the credit report 
        is a source for identity theft, our industry has always taken 
        an active role in assisting consumers who are fraud victims. 
        Our members have taken this responsibility seriously, and we're 
        very proud of these initiatives that help consumers who are 
        victims of identity theft or fraud,'' noted D. Barry Connelly, 
        president of Associated Credit Bureaus. ``Designing and 
        implementing these initiatives is a significant milestone in 
        the ongoing efforts of our industry to help address the problem 
        of identity theft. As long as there are criminals who prey on 
        innocent consumers, we will continue to seek even better ways 
        to serve consumers and work with law enforcement and our 
        industry's customers to address this threat.''

    Connelly outlined the industry's six-point program to improve 
identity theft victim assistance:

    <bullet> Advocate the use and improve the effectiveness of security 
alerts through the use of codes transmitted to creditors. These alerts 
and codes can help creditors avoid opening additional fraudulent 
accounts.
    <bullet> Implement victim-assistance best practices to provide a 
more uniform experience for victims when working with personnel from 
multiple fraud units.
    <bullet> Assist identity theft victims by sending a notice to 
creditors and other report users when the victim does not recognize a 
recent inquiry on the victim's file.
    <bullet> Execute a three-step uniform response for victims who call 
automated telephone systems: automatically adding security alerts to 
files, opting the victim out of prescreened credit offers, and sending 
a copy of his or her file within three business days.
    <bullet> Launch new software systems that will monitor the victim's 
corrected file for three months, notify the consumer of any activity, 
and provide fraud unit contact information.
    <bullet> Fund, through ACB, the development of a series of consumer 
education initiatives through ACB to help consumers understand how to 
prevent identity theft and also what steps to take if they are victims.

    ACB's initiatives, to be fully implemented within seven months of 
this announcement, resulted from a task force comprising senior 
executives from the ACB Board of Directors and former State Attorney 
General, M. Jerome Diamond. Diamond interviewed consumer victims and 
law enforcement officials, made onsite visits to credit reporting 
agency fraud units, and obtained input from privacy advocates. His 
counsel was an integral part of the decisionmaking process and 
influenced the final content of the initiatives.
    Connelly said: ``Identity theft is a crime that is deeply 
unsettling for the victims. Our initiatives will make it easier for 
victims to put their financial lives back together.'' Connelly 
stressed, though, that the crime extends beyond individuals to 
creditors and ACB members and added, ``We must all work together in the 
areas of prevention and victim assistance. We supported the enactment 
of the Identity Theft Assumption and Deterrence Act of 1998 and have 
worked with more than half of the State legislatures on similar laws. 
We urge law enforcement to vigorously investigate and prosecute the 
criminals.''
    Associated Credit Bureaus, Inc. is an international trade 
association representing 500 consumer information companies that 
provide fraud prevention and risk management products, credit and 
mortgage reports, tenant and employment screening services, check fraud 
and verification services, and collection services.

    Senator Kyl. Thanks very much, and thanks to all of you.
    Let me ask Senator Feinstein to begin. I will have to step 
out for just a moment and be right back.
    Senator Feinstein. Thanks, Mr. Chairman.
    Mr. Pratt, I was very heartened by your testimony. Let me 
just thank you for making changes in your system. One of the 
problems that we have had is that identity theft victims report 
that they have difficulties getting in touch with a person, as 
opposed to a recording, when they call a credit bureau to 
report an incident. And they are frustrated at having to call 
each of the major main credit bureaus to report identity theft.
    Is what you are saying that you will have this systematized 
so that one call will be able to reflect through all credit 
bureaus?
    Mr. Pratt. It is a discussion item. I can't tell you yet 
that that is where we will end up, but I will tell you that 
what we want to be able to do is make sure that a consumer who 
calls knows what is going to happen and has confidence in what 
will happen so that they aren't frustrated, even if it is 
Sunday night that they are learning about the problem and they 
are making that phone call on a Sunday. Whether they are 
calling and getting live personnel or not, either way we want 
to make sure that experience is fairly standardized.
    We have other data bases out there, Senator Feinstein, and 
we are looking at how we can make sure that across a larger 
spectrum of data bases consumers don't end up making more and 
more phone calls down the road to help with that efficiency.
    Senator Feinstein. How many credit bureaus are there?
    Mr. Pratt. Well, there are three major credit reporting 
systems that I think we commonly think of. There is a total of 
500 members in the Associated Credit Bureaus, some of whom 
produce mortgage reports, some of whom produce employment 
screening reports or tenant screening reports of various types. 
There are check services data bases. One million two hundred 
thousand fraudulent checks are written a day in this country.
    Senator Feinstein. Well, let me ask you, if Michelle, for 
example, wanted to call a credit bureau to say, ``Look, I have 
got a problem,'' how many calls would she have to make now?
    Mr. Pratt. I think today she would make three main calls, 
and with those major calls we would be able to take those 
steps, making sure that a security alert works, but take those 
steps that a security alert works and is effective, take the 
steps that she wants us to take, and so on; three main calls.
    Senator Feinstein. It would really be helpful, I think, if 
an individual could make one call, and as a product of that 
call the word could go out and they wouldn't have to do the 
rest of it.
    Mr. Pratt. I think that is an idea that goes far back, and 
let me just say that, of course, Jodie Bernstein has been a 
real thought leader and her division has been a real thought 
leader in the area of identity theft, even as far back as some 
of the workshops. We still have some of those ideas plugged 
into the decisionmaking process to take the right steps in the 
right order.
    Senator Feinstein. Do you know how much business is 
actually generated by the sale of marketing lists with Social 
Security numbers?
    Mr. Pratt. I really don't.
    Senator Feinstein. Mr. Emmert, the FTC has made some 
recommendations to my staff for the improvement of 2328, 
particularly sections 7 and 8 that you spoke about. I would 
like to ask that you talk with Tom Oscherwitz of my staff and 
go over these and see if they satisfy your concerns.
    I was reading the bill while you were speaking, and I 
really didn't quite understand what the heart of your concern 
was. Can you repeat that again?
    Mr. Emmert. Sure. Thank you, Senator, and we would be very 
happy to work with you and with Tom on the language.
    One of the issues that we have is the same comment that 
Inspector General Huse made, which is you should prohibit the 
sale of Social Security numbers. I think you should prohibit 
the sale in the consumer marketplace of Social Security 
numbers, but there are sales that happen in a more restrictive 
environment that we believe need to happen that will, in fact, 
be counterproductive if you stop them. When we obtain a list of 
names, addresses and Social Security numbers from the credit 
bureaus, that is a sale.
    Senator Feinstein. Go over what those are, those instances.
    Mr. Emmert. Yes. What we will do is we will acquire data in 
a large set and then we will, in turn, sell it on a limited 
basis to a very finite group of customers that include 
government law enforcement agencies, fraud investigation groups 
within insurance----
    Senator Feinstein. Well, now, there is an exception for 
that in the bill. Keep going.
    Mr. Emmert. OK. We also need an exception for us so that we 
can obtain it to begin with.
    Senator Feinstein. Right.
    Mr. Emmert. You have insurance companies who have fraud 
investigations units, many of which are established as mandated 
by State law. The insurance companies are very big on this. I 
believe the statistics show that they save $10 for every $1 
they spend on fraud investigation. So they are very big on it, 
but it is private sector-type law enforcement activity.
    You have similar issues with the securities industry and 
with the banking industry. We have child support enforcement 
work. We have work with groups that locate missing children. 
These are activities that we think that arguably we should 
support and that we would like to continue to be able to 
support.
    We don't try to defend the use of Social Security numbers 
for marketing or solicitation. It seems unnecessary. I don't 
need to be able to get my neighbor's Social Security number 
just because I am curious, and so a website that would make 
that information available to the general public--I don't want 
to defend that practice. I think it is reprehensible, and it is 
a huge feeder for the types of persons who would commit fraud. 
So, that is not what we are trying to defend. It is the notion 
of ``no sale'' that is the problem because there are behind-
the-scenes types of transactions that need to continue.
    Senator Feinstein. I think we are prepared to make specific 
technical exceptions. As you said, the Social Security number 
is one thing and other data is other things. If you would work 
with our staffs, perhaps we can work this out. One bill is just 
the Social Security number. Another one that I am looking at is 
also the driver's license, personal financial data, and 
personal health data.
    Mr. Emmert. All of those are areas that have slightly 
different issues. The driver's license issues are slightly 
different from the health data and the financial data. We are 
not in the market of distributing health or financial data. We 
don't want to be in that market. We don't want to be 
disseminating people's medical records or their personal 
financial records. Again, I would agree there are reasons why 
you don't want that in the general marketplace, in the public.
    Driver's license records are an interesting category 
because, first, they are public records. And, second, they can 
be used to help with a number of functions. Again, the Drivers 
Privacy Protection Act has helped to restrict those uses 
considerably, and I will point out that even under the most 
restrictive interpretations that have come through on the 
recent amendments, 96 percent of our current customer base 
qualifies under the most restrictive amendments because, again, 
we don't sell for marketing or commercial solicitations or to 
members of the general public who have curiosity.
    We are selling to law enforcement, we are selling to the 
courts, we are selling to attorneys who are working on 
litigation, things of that nature. And so our concern is that 
we can protect those uses which we believe are socially 
beneficial. But we would be more than happy to work with you 
and your staff on this.
    Senator Feinstein. Great. I am a big fan of NEXIS-LEXIS.
    Mr. Emmert. Thank you, Senator.
    Senator Feinstein. On this personal financial data, I have 
been told that there are places where I could purchase every 
mortgage you have ever had, who gives the mortgage, what you 
have owing on the mortgage, any delay in payment you may have 
made, where the houses or house or property or whatever it 
might be is, so that by buying this information, I could 
actually develop a very good financial profile of you, any 
weaknesses you might have, any strengths you might have. I find 
that very dangerous to have out there in the public 
marketplace.
    Mr. Emmert. A couple of comments on that. First, my friend 
Stuart here may, in fact, have that information, but we do not. 
What we do have is we do have information about real estate 
titles. As you know, lawyers do title searches. They help you 
when you go to purchase a house or when you go to sell a house. 
What we make available are the public records themselves that 
you get from the county recorder's office.
    So for a particular parcel of land, we can show who the 
owner of the record is, where the parcel is situated, and a 
legal description of the parcel. If there are liens currently 
in existence against the parcel, the liens would show on the 
title. That is so when you go to buy a house, you don't pay 
$200,000 for a house, only to find out that there is also a 
$150,000 tax lien that you personally are now liable for 
because nobody found it when you made the purchase and it 
wasn't settled. And so that basic information is available. 
Also, you may find things like the assessed tax value of the 
property. What are the property taxes on the property? What is 
the assessed value for tax purposes?
    In terms of the mortgages, I believe the initial mortgage 
amount is stated on some of the deeds. These are records that 
we don't create. We don't necessarily dictate what is in these 
records. We simply report them as they are recorded in the 
county recorder's office. It would not show the amount of the 
payment. It would not show the current balance of the mortgage, 
it would not show prior mortgages, but it may show a second 
mortgage which would be filed as a matter of record against the 
property as a lien.
    Senator Feinstein. Can anyone get this information if they 
are on some kind of a fishing expedition to find a good victim?
    Mr. Emmert. Well, anyone can get this information at the 
county recorder's office today in any county in the country. It 
has been a public record for as long as we have had land 
records in this country. So in that sense, the answer is yes.
    Senator Feinstein. But it is difficult to get.
    Mr. Emmert. Well, it is, but again you look at the 
distributions. Certainly, for our company we have a fairly 
limited distribution. We have a lot of users, but the users 
tend to be in professional categories in the law enforcement 
community, in major law firms, and in large corporations. It is 
not something that we make generally available to the populace 
at large over the Internet.
    Legally, that can be done because those records are public. 
Even if you can't afford a lawyer, even if you are not with a 
law enforcement agency, you are entitled to go down to the 
county recorder's office to find out when that tax bill comes 
in whether your next-door neighbor's property has been assessed 
at the same basic level as yours is.
    I just went through that. I bought a new house. I had been 
in the house less than 6 months and the assessed property value 
was significantly above what I paid for the property. Well, I 
am entitled under the law to go over and see how did they 
assess the other properties on the street. Am I being treated 
fairly with respect to my neighbors? That is one of the reasons 
that those records are available to the public. I don't have to 
hire a lawyer to do it. I can do it myself.
    So there are some touchy issues here in a free society 
because we want to protect persons from fraud, from theft, 
certainly from any scenario of that nature. But it is kind of a 
fine line between protecting people and allowing people to sort 
of protect themselves as well in other contexts.
    Senator Feinstein. Thank you very much. Mr. Pratt, did you 
have something you wanted to add at one point?
    Mr. Pratt. I think Steve really covered some of the basic 
points. We would have mortgage information in a consumer file 
that might show payment information, but that would be 
controlled by the Fair Credit Reporting Act. So in that case, a 
privacy statute is in place which limits distribution.
    Obviously, that is a great challenge you have going 
forward, and I know Tom and you and others on your staff are 
working through that, about what does Graham-Leach-Bliley 
cover, what does it not cover, what does Fair Credit cover and 
what does it not, and so on and so forth. So this is the policy 
issue that we are in today, how to parse through the laws that 
currently exist and to look for, I guess, the element which 
might lead to injury somewhere down the road.
    Certainly, another context for mortgage information being 
available is the efficiencies for a mortgage lending system 
today, the fact that we securitize an enormous amount of 
primary market loans into secondary markets. And in those large 
automated underwriting contexts, the ability to draw from 
electronic data bases which create the efficiency--that is, a 
business-to-business transaction--allows them to do very 
inexpensive assessments of values of property which allows 
them, in fact, to approve up to 70, 75 percent of the loans 
without all of the normal expensive closing costs processes 
that we have seen in the past. So there are those issues to 
think about when you are thinking about this larger context of 
public record and the availability of it, and what are the 
basic tenets of why it was there in the first place.
    I have lived in other countries. Land ownership in this 
country is kind of taken for granted in a lot of ways. We live 
in a very stable society, comparatively. In a lot of countries, 
people don't know who owns the land. They don't know why it is 
being owned. They don't know who controls large swaths of 
property.
    That was one of the fundamental tenets behind the idea of 
making ownership available. Environmental groups today use 
ownership records of that sort to track down who, in fact, 
really controls land, who, in fact, controls wetlands, who can 
build on it, who cannot, that sort of thing. So are these other 
societal benefits that just have to be weighed in context. 
Unfortunately, I guess that is the job of U.S. Senators, to try 
to divine the truth in all of that.
    Senator Feinstein. Thank you. Thank you, Mr. Chairman.
    Senator Kyl. The old saying ``knowledge is power'' is 
really the fundamental of this hearing. That knowledge can be 
very powerful in a very positive way. That is primarily what 
has permitted the Internet and this kind of technology to 
benefit our society in such a significant way.
    But as we point out in this hearing, it can also be used in 
a very powerful negative way, and the trick here is to find the 
proper balance to protect people from the kind of 
extraordinarily harmful activity that can occur, while not 
unnecessarily interfering in the free flow of information for 
positive purposes.
    I was struck, Senator Feinstein, by the fact that if we 
could have these four witnesses sit down with us, we could 
probably craft a very, very good bill, with all of the 
information that is represented at this table.
    Incidentally, we may have a vote any minute here, and when 
that vote is called, we will have about 7 or 8 minutes to 
conclude the hearing and then we will have to finish, but that 
perhaps will be enough.
    Ms. Brown, I was going to ask you what assisted you the 
most in your efforts to clear your name, and then, second, to 
what extent did you receive assistance from the FTC. You have 
given us in writing a lot of great recommendations, some of 
which are being pursued, some we need to pursue. And if you 
would like to add anything else there orally, that would be 
fine, too.
    Ms. Brown. I would say that the first resource that I found 
actually was the Privacy Rights Clearinghouse. And I did 
searches on the Internet for identity fraud that assisted me in 
certain steps to take to not only report the crime, but also to 
try to prevent further misuse of my name.
    Senator Kyl. By the way, did you find that on the Internet?
    Ms. Brown. On the Internet, yes, rapid information. That is 
exactly why I went there. I didn't know where else really to 
turn. If I didn't have access to the Internet, I am sure that 
it would be a very, very lengthy process to figure out what 
steps logically--where to go, to call the DMV, to call the 
Social Security agency.
    I looked onto, say, FBI sites and Secret Service sites, but 
generally at that point the initial thing that I knew about was 
the car loan. That was only $32,000, and to get into something 
of the FBI and Secret Service, my case did not apply yet. I 
think maybe down the line, it could have.
    So I think that those resources from the FTC websites and 
the Privacy Rights Clearinghouse give great information of how 
to go about clearing the process. But I didn't receive any 
further assistance from anybody. It was all just my own 
diligence and my own persistence in calling the police 
departments, and so forth. And like I said, there were many 
times that authorities were not sensitive to my plight.
    I actually called one time to the LAPD when I found out 
that something had occurred in the L.A. County, basically, and 
that is where I was to file a police report. I was told 
blatantly not to bring the case there because, as the guy was 
laughing, you know, he did not want a burdensome case like 
that. So, often, there weren't resources and it was just my 
persistence in going forward. And from there, it was just 
logical. When you make a fraud report, they send you 
documentation, they send you forms to fill out, and you just 
continue to do that at every step of the way.
    Senator Kyl. And, of course, one of the things you 
suggested is much more uniformity in that.
    Ms. Brown. Absolutely.
    Senator Kyl. And we have heard here that that is a step 
that is at least to be pursued.
    Ms. Brown. Absolutely.
    Senator Kyl. Did you talk to anybody at the FTC ever, and 
did they provide any specific help?
    Ms. Brown. Off the top of my head, I don't recall, but I 
have extensive notes of every single phone call that I made.
    Senator Kyl. Did you ever get a letter, a document that you 
could carry with you, the kind of thing that Ms. Givens talked 
about?
    Ms. Brown. When I found out that there was a warrant out 
for my arrest, then I specifically requested from the police 
detective that was working on my case--I filed a police report 
in January 1999. This is June 1999 when I found out I had a 
warrant out for my arrest. Up until that point, even though I 
filed a police report, I didn't have anything in my hand, 
really, aside from a statement that I did file with my local 
police, because I actually feared for my life and if something 
happened to me, I wanted some record of that.
    From that, I had a 1-page sheet that said that I had 
reported identity theft, basically. But up until that point, 
no, I had not received anything in my hand to show my 
innocence. And because I was leaving the country and there was 
a warrant out, I specifically requested this. But in most 
cases, I don't think that victims would really be allowed that 
information. Sometimes, you don't know that there is a clear 
perpetrator. I knew blatantly because she went to the DMV, and 
from their records, after they pulled that information, it was 
clear someone had impersonated me.
    Senator Kyl. So did you eventually get some kind of a 
document that you could carry with you?
    Ms. Brown. From the courts, yes, after she was tried.
    Senator Kyl. So that was late in the process?
    Ms. Brown. September 1999.
    Senator Kyl. And just describe that document briefly.
    Ms. Brown. Initially, I received a letter from the 
probation officer saying that she was going to be convicted on 
such-and-such date; you are allowed to put in a victim 
statement, and so forth.
    Senator Kyl. Excuse me. But when you try to come in the 
country from Mexico, that wouldn't----
    Ms. Brown. Exactly. When I came back from Mexico, that is 
what I had in hand. I also had a letter from the detective. 
Those were the only things I had in hand--well, not 
necessarily. I also have certain statements and documentation 
of filing disputes with credit agencies, and so forth. But the 
real document came from her conviction in the San Diego court 
in September 1999, and I specifically requested this out of the 
court that I wanted them to say this person of such-and-such 
description, and to provide my description----
    Senator Kyl. Alias your name.
    Ms. Brown. Used my name to perform all of these acts, you 
know, burglary and what not.
    Senator Kyl. Let me ask Ms. Givens, you talked about a 
specific document. And this is one of the things I had in mind 
when we introduced our original bill and it didn't come out 
exactly the way I sort of had thought about, but there was at 
least some reference to it.
    What would you recommend, understanding that there are 
different kinds of cases and there are different times in the 
process here, but to try to respond to the precise problem Ms. 
Brown had? What kind of document or series of documents could 
we provide for? And I would think that this could be done, by 
the way, perhaps without legislation. It doesn't necessarily 
have to be a Federal law.
    Ms. Givens. Well, we are working on two bills in California 
that you might want to look to as models. One would be an 
expedited court process where you would get a document from the 
court in the jurisdiction where the arrest or the conviction 
happened. And, by the way, you have to deal with both arrests 
and convictions. Michelle's case is horrible, but the one good 
thing is that the perpetrator was convicted and is in prison. 
That is a rarity.
    Most of the time, you are dealing with a nefarious unknown, 
and you have an arrest warrant and you don't know where they 
are or what they are doing. So you need to be able to address 
both arrests and convictions. But perhaps something that you go 
through your local law enforcement that goes to that court, an 
official document from the court, but the document must be 
accepted by U.S. Customs, by the FBI.
    We have the case of a man who has a document for bad check-
writing that he carries with him. He came back into the country 
and was jailed. U.S. Customs did not accept that document even 
though it was from the courts in Missouri, and he lives in New 
York City. And that was for bad check-writing. So there has to 
be something that is standardized, that is official, that is 
acceptable to all levels of law enforcement.
    Senator Kyl. And it seems to me also something that pre-
dates an actual conviction like this or arrest. You may have 
nothing more than the beginning of learning of the event, two 
or three bad things that you find out about. You report it to, 
say, the credit bureaus. You are starting the process of 
clearing your name, but I mean at that point it seems to me 
there is so much about your life that is now going to be 
implicated in this that it would be useful to have something 
from the FTC or somebody that says this person has at least 
been reporting some really bad anomalies. There would have to 
be some kind of verification--and we can verify that at least 
the first one reported was, in fact, an anomaly, and so listen 
to this person. When she tells you there is something wrong, 
listen to her.
    Senator Feinstein. I think we might look at a statement or 
a letter signed by the chief law enforcement officer of the 
jurisdiction that she has at least filed a case and that an 
investigation is going on, and that he or she may well be the 
unwitting victim of identity theft. The problem is you don't 
want guilty people to go and get this document as well.
    Senator Kyl. No.
    Senator Feinstein. Therefore, it has to be something that 
has some personal attention given to it. It would seem to me 
the local law enforcement agency would be the best source 
because they know whether the complaint, A, is valid or not; B, 
whether there are really suspicious grounds for it and could 
give you a clearance on those two bases without waiting for a 
conviction or an arrest.
    Senator Kyl. One thing that I need to say here for anybody 
who might be watching is that by virtue of our legislation a 
couple of years ago, we made this a crime against the 
individual as well as the financial institutions and others 
that might have been defrauded. Up until then, the individual 
didn't really have standing to force this kind of information 
and force this kind of action. So we have done that much.
    We clearly have to try to refine the various bills and 
amendments that Senator Feinstein has filed and that we have 
been collaborating with here, and I think we will do that and 
would like to be able to consult with all of you. And I would 
suggest, Mr. Pratt, in particular, and Mr. Emmert with the 
association that you represent, and so on, you ought to hire 
people like Ms. Brown.
    I mean, I don't know what she does for a living here, and 
you don't need to tell us here on the record, but the point is 
people with real experience like that, as well as, of course, 
people like Ms. Givens who have a wide survey approach to this 
based upon their extensive work in the area, to understand each 
of the kinds of problems that a victim goes through. I think 
bringing someone like Ms. Brown to some of your meetings and 
saying, ``All right, listen to all of the different things that 
have gone on here''--surely, can't we in the marketplace devise 
ways of dealing with this and not have to rely upon the U.S. 
Congress to pass some kind of law.
    For example, I have been reluctant to force the credit 
reporting agencies to provide a free report. You know, it is an 
expense. I did want to ask you, are you at the point where you 
think you can do that, if it is a reasonable kind of 
requirement, without being too much of a financial burden on 
the companies, Mr. Pratt?
    Mr. Pratt. Senator, we really did deal with that question 
in the many, many years of dialog about the Fair Credit 
Reporting Act that took place in the decade of the 1990's. By 
1996, we had new amendments which were, I think, extensive and 
material, and changed remarkably the privacy statute originally 
enacted in 1970.
    In fact, we agreed at that time there were populations of 
consumers that needed to have a free report. One of those 
populations is a consumer who even just thinks they have been a 
victim of fraud. They don't have to walk in with a police 
report. So, in fact, we felt that that was a population that 
deserved access. I lost my wallet, I want a free report. So we 
agreed with that at the time. We also agreed for welfare 
recipients, for those who are unemployed seeking employment, 
any consumer who has ever been denied a benefit. So we provide 
an enormous volume of free reports per year.
    We do ask, I guess, for some equity, just as if you want in 
and got a deed from the local courthouse, you might pay a fee. 
As long as we can keep that fee reasonable so it doesn't deny 
access merely by the cost, you give us a chance in those cases 
to just handle it in the same way. Currently, the law caps that 
fee at $8 plus the CPI.
    Senator Kyl. Well, we will continue to work with you on 
that, too.
    Because we have this vote, I think we will have to bring 
the hearing to a close, but I can't thank each of you enough. I 
mean, you have all provided very important information for us, 
and I am serious about relying upon your expertise as we move 
forward with this legislation. Please understand we may be back 
in touch with you. Thank you all very, very much.
    Senator Feinstein. May I say ditto. Thank you.
    Senator Kyl. This hearing will now adjourn.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]

                                <all>

</pre></body></html>
